<html>
<title> - EXAMINING NUCLEAR NEGOTIATIONS: IRAN AFTER ROUHANI'S FIRST 100 DAYS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  EXAMINING NUCLEAR NEGOTIATIONS: IRAN AFTER ROUHANI'S FIRST 100 DAYS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-107

                               __________

        Printed for the use of the Committee on Foreign Affairs








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-551 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Mark Dubowitz, executive director, Foundation for Defense of 
  Democracies....................................................     6
Ms. Danielle Pletka, vice president, Foreign and Defense Policy 
  Studies, American Enterprise Institute.........................    23
Mr. Colin Kahl, associate professor, Georgetown University.......    30

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Mark Dubowitz: Prepared statement............................     9
Ms. Danielle Pletka: Prepared statement..........................    25
Mr. Colin Kahl: Prepared statement...............................    33

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83

 
  EXAMINING NUCLEAR NEGOTIATIONS: IRAN AFTER ROUHANI'S FIRST 100 DAYS

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:08 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing in the House Foreign Affairs 
Committee is on Examining Nuclear Negotiations: Iran After 
Rouhani's First 100 Days. We are going to evaluate the current 
state of nuclear diplomacy with Iran. And, of course, last week 
world powers in Iran held a second round of negotiations in 
Geneva. These are historical talks with a potentially profound 
impact on the national security interests of the United States.
    The administration is looking to negotiate an interim 
agreement in which Iran commits to placing some limits on its 
nuclear program for 6 months in exchange for immediate and 
significant sanctions relief with reportedly as much as $50 
billion in frozen oil revenues being released as part of the 
agreement. This deal was not reached in Switzerland.
    Some U.S. allies believe the Iranian commitment was 
insufficient. Of great concern, the proposal failed to 
adequately address Iran's heavy water reactor. The proposal 
also, Members, would allow Iran to continue to enrich uranium 
and would allow Iran to continue to build centrifuges. The 
French Foreign Minister warned of a fool's game, in his words.
    There is growing concern in Congress that the outlines of 
this agreement do not meet the standards needed to protect the 
United States and to protect U.S. allies. Central to these 
talks is the issue of uranium enrichment and reprocessing. 
These technologies can produce the explosive material needed 
for a nuclear weapon. Indeed that is why Iran wants the 
capability, and that is why multiple U.N. Security Council 
resolutions have reiterated one demand, and that demand is that 
all of Iran's enrichment activities, regardless of their 
purpose, must be suspended.
    On this question the world has spoken decisively, but the 
administration envisions permitting Iran to enrich to low 
levels. Regardless of the name, low-enriched uranium and 
medium-enriched uranium are close to weapons-grade highly 
enriched uranium. That is because the effort needed to produce 
weapons material eases as you advance. Nonproliferation experts 
tell us that while medium-enriched uranium is nearly weapons 
grade, low-enriched uranium still represents seven-tenths of 
the effort to get to weapons grade.
    Of course, Iran continues to assert that the 
nonproliferation treaty grants it the so-called right to pursue 
these dangerous technologies. We must remember, and I would 
suggest we must insist, that the treaty was designed to stop 
the proliferation of nuclear weapons. Simply because a nuclear 
activity can be used for people for peaceful purposes does not 
mean the NPT's members have an unconditional right to pursue or 
acquire it, let alone a country that has actively deceived the 
international community and violated its International Atomic 
Energy Agency nuclear safeguard agreements. Iran can have 
peaceful energy, peaceful nuclear energy, but not with the 
access to technology that could be used to advance a weapons 
program.
    There is the question of sanctions, which have been 
painstakingly developed by Congress over many, many years. 
Sanctions have battered the Iranian economy not just because of 
their depth, not just because of the breadth of the sanctions, 
but because of the market forces at play. International 
companies seeking to avoid their web, the web of sanctions, 
steer clear of Iran. As one witness has written, Iran sanctions 
have been as much psychological as legal. The easing of 
sanctions, no matter how minor they my seem--and the Geneva 
sanctions relief was not minor--the easing of those sanctions 
could deflate these forces, eliminate our leverage, and indeed 
remove the reason, 600 billion in capital flight out of the 
country, the very reason that Iran is at the table today.
    Sanctions have forced Iran to the table. We should build 
upon the success with additional measures like those now 
pending in the Senate to compel Iran to make meaningful and 
lasting concessions. The Iranian regime hasn't paused its 
nuclear program; why should we pause our sanctions efforts as 
the administration is pressuring Congress to do? Only when the 
Iranian regime is forced to decide between economic collapse or 
compromise on its rush to develop a nuclear weapons capability 
do we have a chance to avoid that terrible outcome.
    I will now turn to the ranking member for any opening 
comments he may have. Mr. Engel of New York.
    Mr. Engel. Thank you very much, Mr. Chairman. I want to 
thank you for holding this important hearing and to welcome all 
of our witnesses here this morning. I look forward to hearing 
their testimony.
    In late September Chairman Royce and I wrote an op-ed about 
Iran's new President Hassan Rouhani. We were curious if beyond 
the charm offensive and gentle smile, he would use his first 
100 days in office to attempt to fundamentally change the 
direction of the Iranian Government and demonstrate a genuine 
willingness to end Iran's nuclear weapons program. The chairman 
and I wrote this op-ed piece together because we thought it was 
important to show a congressional unity on such an important 
issue as Iran.
    And after Rouhani's first 105 days in office, it is clear 
to me that Iran still poses a significant threat to the United 
States and to our allies. Iran remains the world's top state 
sponsor of terrorism, and continues to support Hezbollah. They 
are actively supporting the Assad regime in Syria, which has 
slaughtered tens of thousands of innocent civilians, and they 
are working to destabilize our allies in the gulf.
    But the biggest threat so far, by far, is Iran's continuing 
effort to develop a nuclear weapons capability. Many experts 
believe that Iran is approximately 1 year away or maybe even 
less from acquiring this capability, and we must do everything 
possible to prevent that from happening.
    The successive sanctions bills crafted by this committee 
and signed into law by President Obama, taken together with 
international sanctions, have had a devastating impact on 
Iran's economy. Iran is having trouble selling its oil in the 
global markets, has been cut off from the international 
financial system, and is starved for hard currency. This 
intense pressure brought Iran back to the negotiating table, 
and this pressure must be maintained, and strengthened if 
necessary, until Iran has taken verifiable steps to freeze and 
even dismantle this nuclear weapons program.
    The Iranians are masters at negotiation for the sake of 
buying time. We must remember that Rouhani formerly served as 
Iran's chief nuclear negotiator, and he has bragged about 
deceiving the West in previous negotiations.
    Now, some people say he is a reformer. I don't believe he 
is a reformer because no reformers were allowed to run for 
President. He may be the most moderate of all the hardliners 
that were allowed to run, but he is no reformer. The reformers 
were all eliminated. And it is not clear to me that even if he 
decided or desired to do so, that he would be able to take Iran 
into a new direction. It appears to me that the Supreme Leader 
Ayatollah Khamenei still has the power, and so we really just 
don't know where we are going.
    So while we must have a genuine openness to a diplomatic 
process that resolves all outstanding issues, we must judge 
Iran by its actions, not by any rhetoric that we might hear. 
And, by the way, the rhetoric that Rouhani came back to Tehran 
and spoke to the Iranian Parliament is rhetoric with hard line 
and not much different from what we have heard over the past 
several years.
    About 4 weeks ago the Iranians came to Geneva with what 
some thought appeared to be a new attitude. For the first time 
they admitted that the sanctions were hurting them badly. And 
for the first time they started talking about the specifics of 
an agreement.
    Since that initial meeting, technical experts from the P5+1 
have met with their Iranian counterparts to discuss the 
contours of a possible deal, and at the end of last week 
another key meeting took place at the ministerial level. Much 
has been reported in the press about this latest meeting, the 
offer that was left on the table, and the reactions of Iran and 
the P5+1. Let us be clear: None of us here today were at the 
negotiating table, and as far as I know, none of us have yet 
been briefed on the details, so I think it would be wise for 
all of us to speak with some degree of caution until all the 
facts are known.
    But having said that, I am deeply troubled by reports that 
the proposed agreement would not have required Tehran to stop 
all enrichment. If Iran intends to show good faith during these 
talks, I believe it must at a minimum abide by United Nations 
Security Council resolutions calling for a halt to enrichment, 
and it is my hope that we achieve much more.
    In addition, I forcefully reject any notion that Iran has a 
right to enrichment, and that is the position the 
administration has publicly supported on many occasions. The 
bottom line for me is this: If these talks are about Iran 
abandoning its nuclear program, then to show good faith at the 
very least while the talks are going on, Iran should stop 
enrichment, period.
    Given the failure to reach an agreement in Geneva, I 
believe it is time for my colleagues in the Senate to take up 
the Iran sanctions legislation that I coauthored with Chairman 
Royce and which the House passed overwhelmingly this summer. We 
must make it crystally clear to Iran that even tougher 
sanctions are coming down the pike if the regime is unwilling 
to take concrete and verifiable steps to freeze and then 
dismantle its nuclear weapons program.
    I know the Secretary of State has a profound interest in 
the legislation Congress is considering on Iran. I hope the 
administration understands that we cannot take their concerns 
fully into account, nor truly understand events at the 
negotiation table, or grasp the impact our legislation may have 
on their efforts if they do not do a better job of keeping 
Congress informed and taking into account what Congress thinks.
    I support the President's effort to engage Iran and believe 
we must continue to explore every diplomatic option to resolve 
this crisis. Nobody wants another conflict in the Middle East, 
but we must also recognize the fact that Iran is getting closer 
and closer to a nuclear weapons capability with each passing 
day. There is still time to test Iran's intentions, but that 
time is growing short.
    So, Mr. Chairman, thank you again for holding this hearing. 
I look forward to hearing the suggestions from our witnesses 
about the next best steps to take to tackle this difficult 
problem.
    Chairman Royce. Thank you, Mr. Engel.
    We go now to the chair of the Middle East Subcommittee, 
Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    As we know, in September Secretary Kerry said that a bad 
deal is worse than no deal on the Iranian nuclear negotiations, 
yet now reports indicate that the administration was willing to 
offer Iran limited sanctions relief in return for a 6-month 
pause to only some of its nuclear program. The administration 
has seemingly acquiesced to the idea of a nuclear-armed Iran 
and has failed to learn from past negotiations with that rogue 
regime.
    We must not accept Iran's false claim to the right of 
enrichment, nor should we offer to ease any sanctions on this 
murderous regime. Iran would be able to quickly start up its 
enrichment program due to its advanced centrifuges without 
irreparably harming its objectives. But if we step back on our 
sanctions, it will be extremely hard to reinstate them.
    There must be no deal that does not include a full and 
verifiable dismantling of all of Iran's nuclear facilities, and 
until Iran is ready to accept those terms, we must continue to 
increase the pressure by fully implementing sanctions on the 
book and enacting even stricter sanctions.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    Mr. Ted Deutch of Florida is ranking member of the Middle 
East Subcommittee.
    Mr. Deutch. Thank you, Chairman Royce and Ranking Member 
Engel, for calling this hearing.
    Let me be absolutely clear: The international community 
cannot permit Iran to obtain nuclear weapons capability, and 
every option must remain on the table to ensure that it does 
not. This conflict will only end when Iran ends its effort to 
acquire nuclear weapons and we can verify this action with full 
and total confidence.
    We know this Iranian regime has misled the international 
community for years, claiming only peaceful intentions while 
installing thousands of advanced centrifuges and building a 
heavy water reactor at Arak. It is time to put Iran to the 
test. Any agreement, partial or full, should do this: Iran must 
immediately come clean about its entire nuclear program. Iran 
should respond to the evidence of its nuclear weapons program 
by granting immediate access to Parchin, the hidden military 
site that has yet to be open to international inspectors, and 
it should mothball Arak, the heavy water plant that will 
accelerate the weapons program.
    With diplomatic talks resuming in 7 days, I urge our Senate 
colleagues to continue to advance this sanctions legislation. 
It is the crushing economic sanctions that force the Iranians 
on a march to the negotiating table. Tougher sanctions will 
not, as some have suggested, rule out a diplomatic resolution; 
they will strengthen our ability to get one that ends Iran's 
nuclear program. This regime must know exactly what is at stake 
if diplomacy fails.
    I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    We now go to Judge Ted Poe of Texas, chairman of the 
Terrorism and Nonproliferation Subcommittee.
    Mr. Poe. Thank you, Mr. Chairman.
    Iran has technology-enriched uranium and has developed 
nuclear weapons with Israel and the United States in its 
sights. It seems the administration believes that appeasement 
and lessening sanctions will help negotiate a deal with Iran.
    When I met with Israeli Prime Minister Netanyahu last week, 
he agreed with me that our sanctions are the only reason why 
Iran is at the table in the first place. He said this proposed 
deal was the worst deal of the century. I agree.
    What Iran wants is to ease the sanctions so that it can 
continue developing nuclear weapons without the pain of 
sanctions to its economy. Who would have thought that the 
French would save us from making a bum deal. The United States 
must be clear there will be no reductions in sanctions without 
verified steps to show that Iran is abandoning its nuclear 
weapons program, not just a temporary freeze on development. 
Mr. Rouhani is a slick snake oil salesman. He puts his arm 
around the West and stabs us in back at the same time. They 
cannot be trusted. No deal, Mr. Rouhani.
    I yield back.
    Chairman Royce. Mr. Brad Sherman of California, ranking 
member of the Subcommittee on Terrorism and Nonproliferation.
    Mr. Sherman. Our sanctions program for the last 3 years is 
one of the very few things that our Federal Government is doing 
that works. It is one of the very few things that is 
bipartisan. That is why we need to do more of it, not less. And 
that is why the Senate should immediately pass the Nuclear Iran 
Prevention Act, which passed the House with 400 votes.
    An interim deal is a bad idea because what the Iranians get 
eliminates the threat to regime survival by just reducing the 
sanctions enough to restore their economy. What we get is at 
best a few months delay in when they have a nuclear weapon. 
They can restore their nuclear program at the end of the deal 
easily by flipping the switch. We will have a hard time 
reassembling other countries to impose strict sanctions when 
their businesses want do business as usual. And $50 billion for 
them while they continue their plutonium enrichment plant in 
Arak seems like a bad idea.
    It is time to declare that Iran has no right to enrich 
because it has violated the NPT, and it is time to move toward 
a final deal in which Iran has--gives up its centrifuges and 
imports its fuel, just as Canada does, just as Sweden does, 
just as South Korea does.
    I yield back.
    Chairman Royce. Thank you, Mr. Sherman.
    This morning we are pleased to be joined by a distinguished 
panel of experts on Iran. Mr. Mark Dubowitz is the executive 
director of the Foundation for Defense of Democracies. He is an 
expert on sanctions and previously testified before the 
committee. He has advised the U.S. administration and numerous 
foreign governments on Iran sanctions issues.
    Before joining the American Enterprise Institute, Ms. 
Danielle Pletka served for 10 years as senior professional 
staff member for the Near East and South Asia on the U.S. 
Senate Committee on Foreign Relations. She is currently a vice 
president of AEI.
    Mr. Colin Kahl is an associate professor at Georgetown 
University. He was previously the Deputy Assistant Secretary of 
Defense for the Middle East at the Pentagon from 2009 to 2011, 
serving as senior policy advisor to the Secretary of Defense.
    And without objection, the witnesses' full prepared 
statements will be made part of record. The members here may 
have 5 days to submit statements or questions or extraneous 
material for the record. And we will ask, of course, all our 
witnesses to summarize their testimony to 5 minutes as we have 
your written testimony in the record.
    We will begin with you, Mr. Dubowitz.

STATEMENT OF MR. MARK DUBOWITZ, EXECUTIVE DIRECTOR, FOUNDATION 
                   FOR DEFENSE OF DEMOCRACIES

    Mr. Dubowitz. Thank you, Chairman Royce and Ranking Member 
Engel, members of the committee. Thank you very much for 
inviting me to testify to this committee, which really has done 
so much to enhance coercive diplomacy with Iran through 
sanctions. It is an honor to be here as well with Dani and with 
Colin.
    Regrettably, the proposed Geneva deal was not likely to 
keep Iran from developing a nuclear weapon. The French Foreign 
Minister rightly criticized the proposed agreement because it 
relaxed economic sanctions, while only reigning in the less 
important components of Iran's nuclear program. Now, this is 
not surprising. Over the years no country has been more 
consistent than France in recognizing the Iranian regime's 
mendacity over its nuclear weapons ambitions. With talks set to 
resume on November 20th, lawmakers who want to encourage 
Western negotiators to cut a better deal now have an 
opportunity to do so by enacting more hard-hitting sanctions.
    What seems to have troubled the French about the 
negotiations, but reportedly nobody else in Geneva, was that 
the proposed deal would not have constrained Tehran's pathway 
to a plutonium bomb, and that not one piece of Iran's nuclear 
infrastructure would have been dismantled. Let us be clear, 
there was no freeze. Geneva reportedly also left significant 
loopholes for the Iranian regime to exploit during the 6-month 
period between an interim deal and a final deal.
    As just two examples, first, Iran would be permitted to 
continue to enrich uranium to 3\1/2\ percent, adding almost 
another bomb's worth to its existing 3\1/2\ percent stockpile 
of five to six bombs during that 6-month period. Now, this 
contravenes multiple Security Council resolutions that call for 
the immediate suspension of all enrichment.
    Second, Iran would be allowed to keep all of its installed 
centrifuges and produce thousands of additional ones without 
agreeing to the monitoring of any of its centrifuge 
manufacturing facilities. As a result, Iran could be well 
positioned to divert those centrifuges to secret enrichment 
facilities or to install them in its declared facilities at a 
time of its choosing.
    All of these nuclear facts on the ground would enhance 
Iranian leverage during negotiations for a final deal. We have 
seen this movie before, but it doesn't have to go this way.
    Now, without new sanctions American negotiators will likely 
never again have as much economic leverage over Tehran as they 
do right now. The impact of European and American sanctions on 
Iran is what helped to jump-start these negotiations. But to 
whatever extent the Supreme Leader fears popular unrest 
provoked by sanctions, that trepidation will lessen if economic 
pressure is relaxed.
    The efficacy of sanctions depends on the threat of their 
escalation where an ever-expanding web of restriction keeps 
foreign firms from doing business with the regime. In many ways 
the Iranian sanctions program has been as much psychological as 
legal. So when the United States sends a signal that it is 
willing to block new sanctions and reduce existing sanctions 
for little in return, the impression abroad is that the White 
House's resolve is waning.
    The White House says new sanctions will undercut the 
sanctions coalition. Actually the reverse is true. Without new 
escalating sanctions, the alternative is to rely on the 
enforcement of existing sanctions. This will invariably require 
the administration to punish many more companies that it has 
targeted in the past, including companies from its P5+1 allies.
    Now, reports out of Geneva indicate that the administration 
was ready to unfreeze assets; ease sanctions on gold, 
petrochemicals, the Iranian auto sector; give the regime tens 
of billions of dollars in hard currency. The regime would be 
allowed to take this hard currency back to Iran, giving 
Khamenei and Rouhani more cash to spend on nukes, terrorism, 
human rights abuses, or to support Assad. It is possible, 
though highly unlikely, that Rouhani, the right-hand man of 
former Iranian President Rafsanjani, who drove the nuclear 
program in the 1980s and 1990s, suddenly wants to forsake his 
nuclear legacy, but even if that were the case, why would the 
prospect of easing sanctions help him persuade Khamenei and the 
Revolutionary Guards to abandon their deeply held cause?
    The Geneva negotiations indicated that Rouhani's bosses are 
willing to make concessions that are easily revoked or not much 
of a nuclear impediment to start with. We have a capacity to 
increase this pressure. New sanctions could be written to lock 
up all of Iran's overseas currency reserves. Financial relief 
should only come when Iran takes real steps to verifiably and 
irreversibly dismantle its military nuclear program. And there 
are ways to do this. We can discuss this more in the Q&A.
    Now, new sanctions may not be enough to stop an Iranian 
nuke, but America would have a much stronger hand in 
negotiations if Khamenei were put to a fundamental choice 
between economic collapse and his military nuclear program.
    Mr. Chairman, I argue here today that without new sanctions 
we are currently at the high-water mark of American negotiating 
leverage. If the Geneva proposal was as weak as our allies 
believed, what should make any of us think that a final 
agreement would be any better?
    Thank you very much.
    [The prepared statement of Mr. Dubowitz follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Chairman Royce. Ms. Pletka.

 STATEMENT OF MS. DANIELLE PLETKA, VICE PRESIDENT, FOREIGN AND 
     DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE

    Ms. Pletka. Thank you, Mr. Chairman, Ranking Member Engel, 
members of the committee. It is always an honor to appear 
before House Foreign Affairs. Thank you very much for including 
me. I am also honored to sit next to Colin and Mark, two people 
whose views I take very seriously on the Iran question.
    As we assess the current negotiations over Iran about its 
illicit nuclear weapons program and measure the efficacy of our 
sanctions, our overall Iran policy, and the quality of our 
negotiations themselves, a few things should be clear. We have 
rarely achieved anything of note in negotiations over such 
nuclear weapons programs. Despite assiduous efforts to roll 
back, eliminate, neutralize or otherwise alter the trajectory 
of programs in North Korea, in Pakistan, in India over the 
years, we failed in almost every case bar one, and that was 
Libya where Qadhafi's assumption of an imminent American 
military action forced him to relinquish most, although we now 
know not all, of his nuclear capabilities.
    We have also been fortunate in the nature of our 
adversaries. Only because the Islamic Republic has been so 
brazen, only because of its singularly incompetent leadership, 
only because of its catastrophic economic mismanagement have 
sanctions actually begun to bite.
    In addition, successive Presidents of the United States 
have consistently underused the authorities granted to them in 
law both through IEEPA and a series of Iran- and proliferation-
oriented pieces of legislation. Enforcement has depended far 
more on personality than on capacity. Congress, too, has proven 
itself more eager to draft legislation than it is to hold the 
administration's feet to the fire, and here I include both the 
Obama, and the Bush, and the Clinton administrations before it. 
I am regularly struck by the willingness of committees of 
oversight to give a pass to State Department officials 
unwilling to enforce the letter of the law, and their lawyers 
who view sanctions-related determinations as optional 
instructions from the Congress.
    It is true every President should be eager to end the 
Iranian nuclear weapons program and stifle Tehran's attempts to 
dominate the Middle East. The question before us is simply on 
what terms. Unfortunately those terms keep changing. In each 
new round of negotiations with Iran, the Obama administration 
has proffered a sweeter set of incentives and fewer demands of 
Tehran. That gives Iran every reason to play out the clock, 
advance its program, and hope for a better offer the next time 
around.
    In April 2013, just this year, the P5+1 negotiating team 
demanded among other measures that Iran suspend all of its 
enrichment above 5 percent with Iran, and suspend all of 
enrichment at the Fordow underground facility, and transfer all 
collected uranium oar, including enriched oar, to facilities 
within Iran.
    Previously the P5 and its earlier iteration, the EU-3 and 
the United States, demanded a suspension of all enrichment. 
Before that the group demanded no enrichment at all and an end 
to the conversion of UF6 into precursors for enrichment. This 
time the only suspension demanded is reportedly for 6 months, 
and there is no demand to transfer enriched fissile material 
internally, we understand from reports, although as the ranking 
member says rightly, I don't think any of us have seen the 
actual proposal.
    When I asked an administration official about Parchin last 
week, which is the suspected site of nuclear weaponization 
activities, he responded that Parchin is the IAEA's problem, 
not the American negotiators' problem.
    Finally, on the question of how Iran will step back from 
its nuclear weapons program, we need to consider the strong 
possibility that Iran has secret nuclear sites. Indeed the 
United States has not discovered any covert Iranian nuclear 
site until it was well advanced, and in most cases it was 
revealed by another party. I haven't spoken to a single 
official familiar with the intelligence from the U.S. Or 
elsewhere who has denied that they suspect that Iran is 
operating a secret facility.
    Will additional sanctions persuade the Iranians of the need 
to end their program? Will strong actions from the Congress 
prevent the administration from demanding more of the Iranians? 
Yes and no. Only the strongest of sanctions have gotten Iran to 
the table. They have yet to agree to the de minimis demands of 
the Obama administration, let alone the more stringent ones of 
the United Nations and the IAEA. It is true, as my colleague 
said and as you said, that only tougher measures will keep them 
at the table.
    One final point. We have spoken today of Iran's nuclear 
program, though, of course, Iran also has a growing and 
sophisticated missile arsenal. In addition, the regime in 
Tehran is the prime engine of Assad's regime battlefield 
successes in Syria; the sole sponsor of Hezbollah, the world's 
most powerful terrorist group; a sponsor of Hamas; a spoiler in 
Afghanistan, in Iraq, in Bahrain and Yemen; and, of course, an 
abuser of the Iranian people's own rights.
    Last I want to say a word about Rouhani, which is one the 
topics of the hearing. The committee asked about the domestic 
and Iranian environment in which Rouhani finds himself. I 
believe actually that Rouhani is a reformer within the context 
that is allowed by the Supreme Leader, but his remit is to 
sustain the system that was put at risk by Ahmadinejad, not to 
give up the Iranian nuclear program. It is important to 
understand that his job is to set Iran on a stable footing, not 
to give up nuclear weapons or reconcile with a region.
    American officials who see themselves as key to Rouhani's 
credibility, as they have said, would be better served worrying 
about their own credibility. Their efforts to micromanage 
American domestic politics have been pretty unsuccessful. 
Efforts to manage Iran are certain to fail.
    Thank you.
    [The prepared statement of Ms. Pletka follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Chairman Royce. Dr. Kahl.

 STATEMENT OF MR. COLIN KAHL, ASSOCIATE PROFESSOR, GEORGETOWN 
                           UNIVERSITY

    Mr. Kahl. Chairman Royce, Ranking Member Engel, 
distinguished members of the committee, thank you for inviting 
me to testify.
    Dani and Mark, it is great to be at the table with you.
    The most recent round of talks between Iran and the P5+1 in 
Geneva were serious and sustained. Differences between the 
parties have been narrowed, bringing the broad contours of an 
interim agreement broadly into view.
    It is clear that several sticking points remain, and we do 
now know whether a deal will materialize on November 20th when 
the parties reconvene, but if it ultimately resembles the 
agreement described in recent press reports, it would be a 
meaningful first step on the road to a final comprehensive 
agreement.
    In the coming months the opportunity to meaningfully 
constrain Iranian nuclearization could be seized, leading to a 
peaceful outcome, or squandered, setting the stage for an 
Iranian bomb, another military confrontation in the Middle 
East, or probably both. As a former Deputy Assistant Secretary 
of Defense, I firmly believe that all options need to remain on 
the table to prevent Iran from acquiring nuclear weapons, but I 
also know enough about how a military conflict with Iran would 
likely unfold to understand that an enduring diplomatic outcome 
is far preferable to another war in this part of the world.
    Achieving a peaceful solution will require close 
cooperation between the Obama administration and Congress. We 
have enough leverage at the moment to start the ball rolling 
toward a final agreement. More sanctions at this juncture are 
not required.
    According to U.S. intelligence officials, Iran has already 
mastered the basic knowledge and technology required to 
eventually produce nuclear weapons if the regime decides to do 
so. Nothing, including a complete dismantling of the Iranian 
program, will put that technological genie back into the 
bottle. Instead negotiations should focus on a more concrete 
and achievable objective, which is placing meaningful and 
verifiable constraints on Iran's ability to translate rapidly 
its accumulated knowledge and civilian nuclear capabilities 
into nuclear weapons. That is, the deal we should be focusing 
on is one that would prevent an Iranian breakout capability.
    Some analysts argue that U.S. negotiators should capitalize 
on existing leverage created by crippling sanctions and Iran's 
apparent willingness to negotiate to insist on a maximalist 
deal. My colleagues at the table appear to share that view. 
This approach is reflected in Israeli Prime Minister 
Netanyahu's four noes: No uranium enrichment at any level ever, 
no stockpiled enriched uranium, no centrifuges or centrifuge 
facilities, and no Arak heavy water reactor.
    Attempting to keep Iran as far away from nuclear weapons as 
possible by making these demands seems reasonable, but in 
reality the quest for an optimal deal that requires a permanent 
end to Iranian enrichment at any level would likely doom 
diplomacy, making the two worst outcomes, an Iranian bomb or a 
war with Iran, much more likely.
    Regardless of the pressure from the United States, the 
Iranian regime is simply unlikely to agree to permanently end 
all fuel cycle activities, including enrichment. Khamenei has 
invested far too much of the regime's domestic legitimacy in an 
excess of $100 billion to defend Iran's so-called rights to 
find this domestic enrichment to completely capitulate now. 
Indeed the Supreme Leader likely fears such a humiliation more 
than he fears escalating economic sanctions, economic collapse, 
or even targeted military strikes against his nuclear 
facilities.
    Given profound reasons for the regime to reject a 
maximalist deal, pursuing one would require the United States 
to go to the very brink of war with Iran to achieve it. It 
would also require dramatic escalation of existing sanctions.
    Yet pursuing such a high-risk strategy is unlikely to work 
and could backfire badly. First, it is unclear whether any 
escalation of sanctions could bring the regime to its knees in 
time to prevent Iran from achieving a nuclear breakout. If the 
Iran nuclear issue is as urgent as we all believe, that argues 
for having a deal sooner rather than later.
    Second, and somewhat paradoxically, escalating sanctions at 
this moment would actually end up weakening international 
pressure. Whether one believes Rouhani or not, he has changed 
the international narrative and made Iran look reasonable. If 
we start to look like the unreasonable party, it will make it 
much more difficult to sustain the international cooperation 
isolating Iran.
    Third, issuing more explicit military threats is also 
unlikely to achieve a maximalist diplomatic outcome since 
targeted military strikes against Iran's program would not hold 
the regime at risk. And, worse yet, signaling that our entire 
goal is to bring about an existential crisis for the regime 
would probably motivate them to accelerate their nuclear 
behavior to get a deterrent before that outcome materializes. 
So instead we should be focusing on a sufficient deal that 
prevents breakout.
    The deal that the administration appears to be negotiating 
in Geneva would be a useful first step toward this outcome. It 
is not in and of itself the outcome; it is a first stop toward 
the outcome. The broad countours of the deal have already been 
outlined by the other speakers, although I will say that the 
financial relief is not anywhere close to $50 billion. It is 
probably less than $10 billion.
    The question becomes whether in and of itself the first 
deal is a meaningful step, and the answer is yes in a number of 
respects. First of all, eliminating the 20 percent stockpiling, 
stopping 20 percent enrichment would double the breakout time 
from its current level. That is, it would take Iran twice as 
long to produce weapons-grade material after this deal goes 
into place than is true today. That is meaningful.
    The deal would also put firm restrictions on building the 
fuel assemblies for the Arak nuclear reactor, which would also 
stop the clock on making that an unstoppable breakout 
capability for plutonium weapons.
    I could go into the other details about why the inspections 
regime and the rest of the detail of the agreement are likely 
to serve U.S., Israeli and other interests in whatever detail 
the committee members would like.
    Last but not least, just let me say something about 
sanctions. Because of your hard efforts and the efforts of the 
administration, we have accrued an enormous amount of leverage. 
Nothing in the limited sanctions relief under this deal guts 
the oil or financial sanctions which are required to drive the 
Iranians toward a final proposal. And nothing of it would be 
permanent if the Iranians reverse course. At this juncture we 
have enough sanctions to get the Iranians across the goal line. 
The bigger risk is escalating sanctions at a very fragile 
moment of diplomacy and being responsible for diplomacy 
careening off the cliff.
    Thank you very much.
    [The prepared statement of Mr. Kahl follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Chairman Royce. I remember well--before I go to my 
question, Ms. Pletka, I wasn't in Congress at the time, but I 
remember well the Reagan administration arguing as passionately 
against escalation of dramatic sanctions against South Africa 
that had the bomb, and I remember the consequence of Members of 
Congress insisting that regardless of the fact that those 
sanctions might be debilitating, might create a certain crimp 
in our diplomacy with South Africa, the probable result, said 
Republicans and Democrats in the House and Senate at the time, 
was that we would bring South Africa to the table because it 
would be unendurable for the South Africans to continue both 
their efforts with apartheid as well as their ongoing efforts 
with their nuclear program.
    It turned out in retrospect that the Members who passed 
that legislation in the House and Senate did have the 
legislation vetoed by the administration, but that veto was 
overridden by both Houses, as I recall, and the consequences of 
it was that the Government of South Africa, those involved in 
that process, said afterwards, we wouldn't have lasted a week 
if we had not turned over the nuclear weapons program, if we 
had not turned over the bomb, and had we not changed from 
apartheid.
    I would just say that we have heard from the experts before 
in terms of the likely results, adverse results, of 
dramatically increasing sanctions, but I was going to ask 
Danielle Pletka, Dani, what is your take on what happened with 
respect to our failure to do so with North Korea? Because I 
remember well Treasury designed a program in 2005 to put 
sanctions on North Korea, and we did it. State wanted them 
lifted; argued that if we lifted it, that we would get the 
results that were promised by the leader in North Korea at the 
time. And the consequences, of course, were very different than 
what was anticipated. We did not go through in that case with 
our full-throttle sanctions, we lifted that, and what was the 
consequence?
    Ms. Pletka. I think North Korea has tested three times as a 
result of our fine negotiating efforts. And I want to remind 
the members who was involved with the negotiating efforts 
because it was Wendy Sherman, the same person who we have in 
Geneva.
    There is another point here. There are two important 
points.
    Mr. Sherman. Point of personal privilege. No relation.
    Ms. Pletka. No accusation from me.
    There are two important points in what you said, I think. 
The first is about South Africa. The only time when these 
negotiations have succeeded is when government changed. So, for 
example, some of the former states of the Soviet Union have 
also been willing to give up their nuclear programs, but it is 
only when the government is changed. It is not as a result of 
clever negotiations on the part of the United States or anyone 
else.
    The second point is how similar these discussions and the 
framework, which is being referred to casually as a framework, 
with Iran is to the agreed framework with North Korea. It is 
also premised on this notion of sequencing, which is that is 
they give a little, we give a little, and then theoretically 
they give a little more, and by that we all build confidence in 
each other.
    As you rightly said, I think the evidence is pretty clear 
about North Korea. We gave a little, they gave nothing. We gave 
more, and they still gave nothing. By the end we were actually 
giving to get them to the table. We were giving them food and 
bribing the North Koreans just in order to get them to agree to 
come to the talks, and then they would take that and provide it 
to their military, and so we even had to stop that. So point 
well taken.
    Chairman Royce. Well, during the Bush administration we had 
these arguments with the Bush administration. Democrats and 
Republicans were arguing with the administration. The 
administration was saying a small amount of sanctions relief 
was worth it to get a deal that would constrain its nuclear 
program. Unfortunately had we listened, in my opinion, to 
Treasury at the time, talking to some of the defectors out of 
the missile program, they said when those sanctions have been 
deployed, they couldn't get the hard currency to buy the--on 
the black market to buy the gyroscopes that they needed for 
their missiles.
    I was going to ask Mr. Dubowitz about his comment about 
this limited sanctions relief and the argument that if you go 
down that road, the floodgates, as you said, could be opened in 
terms of the unraveling of existing sanctions, which serve 
right now to drive a lot of capital flight out of the country 
to try to--that serve right now to force the Government of Iran 
to make some tough choices. Give me your assessment on that 
again in detail, if you would.
    Mr. Dubowitz. Thank you, Chairman Royce.
    First of all, I think there is a fundamental 
misunderstanding about sanctions. There is a lot of reference 
about the sanctions architecture. Somehow these sanctions are a 
house, and that we have got pieces of legislation with words on 
them, and that has created fear in the marketplace.
    What has created fear in the marketplace has been the 
escalation of sanctions. It is the fear that every few months 
the administration is going to impose new sanctions through 
designations and Executive Orders, and every 6 to 12 months 
Congress is going to pass new sanctions, and it is going to 
create an economic mine field around Iran.
    And as a result of that, the administration hasn't had to 
actually sanction that many companies. If you look at the 
number of companies that have been penalized and the number of 
designations that have actually taken place, they are actually 
relatively few, and the reason for that is it has created fear, 
and fear is a great motivator in overcoming greed in the 
international marketplace.
    What we are talking about now with respect to sanctions 
relief in its most general terms is to actually stop that 
escalation, to actual deescalate. And in deescalating the 
sanctions, what we are doing is we are enticing international 
companies to test our resolve and to go back into Iran's 
lucrative energy sector to start facilitating financial 
transactions and start facilitating shipping, et cetera. There 
are companies who want to go back in. We see media reports of 
major energy companies who want to invest back in Iran, who 
want to buy more black market oil, and those companies are 
waiting to test our resolve.
    Chairman Royce. Well, Dr. Kahl warns against pushing for 
what he terms a maximalist deal with Iran. Ms. Pletka notes 
that there are six binding resolutions of the U.N. Security 
Council demanding that Iran suspend all enrichment and all 
reprocessing activities. So the administration's approach would 
undercut these resolutions.
    Mr. Dubowitz, you note that the administration isn't even 
working toward a de minimis agreement. What are the conditions 
that we need to see put in place, in your opinion? And I will 
close with that question. 
    Mr. Dubowitz. Well, I think that the de minimis agreement--
and David Albright has actually come forward with an 
interesting de minimis proposal, a bare minimum proposal. And 
one of the elements that I found most interesting in David's 
proposal is the requirement that Iran must freeze all 
centrifuge manufacturing immediately.
    It is important to understand that what the Iranians have 
been very adept at doing is creating nuclear facts on the 
ground, and that this reported Geneva deal would not terminate 
any centrifuge manufacturing. So what the Iranians could do in 
the next 6 months is they can build new centrifuges. They can 
build thousands of new centrifuges, and they can take those 
centrifuges, they can put them in inventory, they can wait 
until they get closer to a final deal, then if a deal breaks 
apart, they are ready to install thousands of new centrifuges, 
which extends their breakout capacity. They can also take some 
of those centrifuges and they can hide them away in secret 
enrichment facilities.
    So one of the reasons this is a key deal term is this is 
absolutely critical to ensuring that Iran doesn't have secret 
enrichment facilities, which has been the fear of the 
Intelligence Community for many, many years. That is one 
element of a de minimis deal that reportedly was not part of 
the Geneva negotiations.
    I think just as an overall response, Chairman Royce, we are 
at the high-water mark of our negotiating leverage right now, 
and the fact that we even term our demands maximalist instead 
of the absolute bare minimum shows that from a negotiating 
point of view, the Iranians are willing to come in, negotiate 
with us, and bring our demands down. We should be insisting 
that enrichment is a minimum requirement, not a maximalist 
requirement, as Under Secretary Sherman said just a couple of 
months ago.
    Chairman Royce. Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    To me, one of the questions--and you all talked about it a 
little bit, but I would like to hear more about it. The 
question really hinges on whether we need an interim agreement, 
or should we just be negotiating a final agreement. Netanyahu 
has said that we shouldn't reach an interim deal with Iran 
where they only limit part of their nuclear program in return 
for the relief of some sanctions. He argues that once you 
relieve the pressure on Iran, you will never be able to turn it 
back up, and Iran will never take the necessary steps to 
eliminate the nuclear weapons program. The administration 
thinks, or said to me, they think an interim deal is necessary 
in which we pursue and even set back the Iranian program for 6 
months. They say much about the fact that this will be the 
first time that the Iranian nuclear program would be slowed 
down.
    So the question I would like to really ask is do we need an 
interim deal, or should we just not--should we negotiate until 
we have a final deal? I would like to ask each of you that.
    Mr. Dubowitz?
    Mr. Dubowitz. Well, the dangers of the interim framework is 
exactly what we are seeing, is that the Iranians are giving up 
de minimis nuclear concessions, and we are essentially 
unilaterally suspending the escalation of our sanctions. And in 
addition, we are offering real tangible hard currency sanctions 
relief.
    The dangers of an interim process is that the Iranians are 
going to enhance their nuclear negotiating leverage through 
facts on the ground, and we are going to diminish our economic 
leverage as companies become less fearful of U.S. sanctions and 
penalties, and as the web of sanctions begins to unwind. The 
architecture in legal terms may stay in place, but the absolute 
psychology may change. We may find ourselves in 6 months' time 
back in Geneva where the Iranians have enhanced their 
negotiating leverage, we have undermined ours, and that final 
deal will not do what it was intended to do, which is to stop 
Iran's march to nuclear weapons capability.
    That is the danger of an interim framework. I think that is 
why we should be approaching these negotiations as an entire 
negotiation where everything is on the table. While the 
Iranians continue to enrich and continue to construct their 
heavy water reactor and building centrifuges, we need to be 
escalating our negotiating leverage through new and additional 
sanctions. Then let us put Khamenei to the test between a 
nuclear bomb and the survival of his economy.
    Mr. Engel. Ms. Pletka?
    Ms. Pletka. What is most striking to me is how the nature 
of our negotiations has changed. We are negotiating on Iranian 
terms, and I think it is important to understand that when you 
think about the interim agreement.
    We have always characterized the battle in Iran as two 
timelines, the timeline in which our sanctions are effective in 
getting them to the table and giving up their program, and 
their race to a bomb. Essentially what we are giving them by 
what we understand as the proposed offer that was given in 
Geneva is we are giving them the time to work on their program 
and the relief from the sanctions. So we are really giving on 
both sides while gaining almost nothing.
    There is another factor here. I was really struck by 
something Colin said, that we need a deal sooner because Iran 
is close. And if we don't do a deal sooner, if we have to look 
at a military option, they may well be at a point where they 
have a nuclear weapon.
    Do we understand what leverage we have over time given the 
Iranians that he has just given away in this statement that we 
better do a deal now, otherwise they are going to have a 
nuclear weapon? That is unconscionable. In addition, what are 
the Iranians proposing to give away? Something that before 1\1/
2\ years ago they weren't doing, which is enriching to 20 
percent.
    So the notion that we are somehow more skilled negotiators 
than the Iranians and that we are going to gain a trick on them 
by this interim step to me seems palpably false.
    Mr. Engel. Let me ask Dr. Kahl. I am sure his answer will 
be a little different.
    Mr. Kahl. You probably suspect my view differs a little 
bit. Look, we have to have an interim deal, and the reason is 
we need the time, and we need the time for two reasons. First, 
the ultimate comprehensive deal, whatever its shape, 
maximalist, de minimis, whatever your terms are, is going to 
take a long time to negotiate. It is going to take 6 or 12 
months.
    And that brings me to the second issue, which is Iran is 
making steady nuclear progress. Nobody denies that. The 
challenge is if you don't slow or halt or start to roll back 
their program, you are going run out of negotiating room before 
they reach a critical threshold that would enable them to break 
out. So it is irresponsible, in my view, not to have an interim 
deal that effectively stops the clock so that you can negotiate 
the final deal.
    The alternative is that we basically play a game of chicken 
with the regime. We gamble on the notion that their regime will 
be brought into an existential crisis in the next 6 months, and 
that they will swerve. The problem is this is a regime that 
lasted for 8 years during the Iran-Iraq war in which they lost 
\1/2\ million dead and experienced more than $\1/2\ trillion in 
costs. They are not on the brink of extinction, they are not 
likely to cry uncle in the next 6 to 12 months, which means we 
need to by time through an interim deal.
    Mr. Engel. But, Dr. Kahl, let me say this: Shouldn't we be 
saying to the Iranians, as long as we are negotiating, you 
don't enrich. Shouldn't we at the minimum be sitting down with 
them saying--I think that Mr. Dubowitz and Ms. Pletka mentioned 
this--there have been United Nations Security Council 
resolutions saying that Iran must abandon its enrichment, so 
why are we stepping back from those resolutions? Might not that 
be a way to buy time?
    Mr. Kahl. I don't think the administration is actually 
stepping away. I think that the U.N. Security Council 
resolutions will have to be addressed during the period of 
negotiations. The question is whether you can get the Iranians 
to completely suspend their program now. They are unlikely to 
do it. For one thing, Rouhani agreed to do that in 2003 and 
believes that the West pocked those concessions. He is not 
likely to make that mistake again. So we have to push for the 
U.N. Security Council resolutions to be addressed as part of 
the process of a final deal.
    But in terms of interim deal, it doesn't need to be 
addressed. And I think it is important for the committee to 
understand this deal would stop 20 percent enrichment; it would 
eliminate or neutralize most of their 20 percent stockpile; it 
would stop new installations of centrifuges. Contrary to what 
Mark said, it would not allow them to stockpile new 
centrifuges; it would allow them to repair broken ones, but not 
stockpile them. And it has a meaningful solution for Arak. It 
would halt the program, the most troubling parts of the 
program, for a period of time to negotiate an agreement that 
can address the U.N. Security Council resolutions.
    Mr. Engel. I am way over my time. Thank you, Mr. Chairman.
    Chairman Royce. Ms. Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Well, history has shown us that our high hopes on Iran are 
misplaced and are always met with empty promises. The U.S. 
should only deal with Iran from a position of strength, and 
Iran senses weakness in our current approach. Iran is using the 
North Korea playbook until it realizes its ultimate objective.
    It took years for us to get sanctions in place that were 
strong and effective enough to bring Iran to the negotiation 
table, and now that the moment is upon us, we cannot falter. We 
must stay strong in sanctions, yet at the first sign of this 
fairy tale progress, we balked. We offered Iran sanctions 
relief just for the opportunity to give them more time to 
complete its nuclear ambitions without any enforcement--true 
enforcement mechanisms.
    Dr. Kahl, you state that escalating sanctions now could 
weaken international pressure on Iran, and that doing so would 
tie the hands of our diplomats. But if Iran came to the 
negotiation table because the impact the sanctions are having 
on its economy, wouldn't continuing to pressure Iran bring it 
to the point where it would be forced to decide between total 
collapse of its economy or completion of its nuclear program?
    And I will continue, the impact sanctions have had on Iran 
are obvious, but imagine how much more effective they could 
have been if we in the United States fully and forcefully 
implemented and enforced them 100 percent of the time with no 
waivers. That is not happening now.
    Ms. Pletka, you testified that you believe that Congress 
has not done its due diligence, and we have not forced the 
administration to enforce existing laws. I could not agree more 
with you. For over 10 years, administration after 
administration, I have been trying to remove waiver authority, 
have introduced and passed several sanctions bills, and 
constantly pushing for stronger and more comprehensive 
sanctions so that the true intent and impact of these laws can 
be felt.
    Do you believe the lack of enforcement has weakened our 
hands at the negotiations and undermined sanctions?
    And finally, Mr. Dubowitz, you argue that core sanctions 
should remain in place, but favor unfreezing certain Iranian 
assets. Wouldn't injecting funds into Iran's economy embolden 
the regime and alleviate the pressure, thus eliminating the 
only reason why it came to the negotiation table?
    We will start with any of you. Ms. Pletka.
    Ms. Pletka. A lot of questions. Thank you, Congresswoman 
Ros-Lehtinen.
    You asked me about enforcement. What has always struck me 
about this problem--and I came to the Hill in 1992, and we were 
working on the Iran-Iraq Nonproliferation Act when I came. It 
is always--sanctions are always a lagging indicator of the 
seriousness of the Iranian nuclear program, and that is the 
real problem. The closer they get, the more serious we are. But 
it is triggered by them, not by us. And I believe that the 
President has had the tools in his hand. I believe Bill Clinton 
had the tools in his hands in 1992 to begin to do the right 
thing. I think successive Presidents have had additional tools 
in their hand and substantial pressure with the legislation.
    The problem really is that they have never wanted to 
enforce, and they have never wanted to lean particularly on our 
allies. Colin is absolutely right, they didn't want that 
pressure. But what we see now at this eleventh hour is those 
sanctions made a difference, and the problem is that new ones 
will make a bigger difference.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Dubowitz. The problem right now is that we have had a 
policy of all options are on the table. And now the President 
of the United States is taking all of those options off the 
table. He is taking the military option off because of the 
debacle in Syria, and because nobody, including Ali Khamenei, 
believes that the U.S. President will use military force to 
blow out his nuclear facilities. He is now asking the U.S. 
Congress to take sanctions off the table. So no military force, 
no sanctions, rely on diplomacy. Well, diplomacy without 
military threat and without sanctions is not coercive 
diplomacy, it is ``trust me'' diplomacy, and this is a regime 
that we cannot trust.
    By the way, this is a regime that has blinked many times in 
the past in response to significant U.S. Pressure. The notion 
that this regime does not cry uncle is not supported by the 
facts.
    Third is the idea of sanctions relief. If you are going to 
give sanctions relief, first thing you should do is take away 
all of Iran's money. They have over $80 billion in foreign 
exchange reserves. Quite a bit of that is accessible. Lock it 
down through financial sanctions. Once you have locked it down, 
only then if they take steps to verify and dismantle their 
military nuclear program should you begin to release some 
money, but don't give it back to Ali Khamenei and Rouhani.
    Ms. Ros-Lehtinen. So there is still so much we can do.
    Mr. Dubowitz. Well, the fact of the matter is don't give it 
back to the regime; take it out of Chinese escrow accounts, put 
it in German escrow accounts, where the Iranians like to go 
shopping. At the end of the day snap it back when they cheat.
    Ms. Ros-Lehtinen. We are out of time. Thank you, Mr. 
Chairman.
    Chairman Royce. Mr. Brad Sherman of California.
    Mr. Sherman. Those sanctions, at least tougher than we had 
before, brought Iran this far. They are clearly better now than 
they were 6 months ago.
    Why wouldn't the negotiations be more successful if the 
Senate were to pass the bill that this House passed by 400 
votes? Why abandon the strategy that I think everybody agrees 
has forced Iran to at least change its image and its sound, to 
put sugar in its rhetoric, and, according to the opponents of 
sanction, have caused Iran to improve its behavior?
    Dr. Kahl?
    Mr. Kahl. That is a good question. I don't think there is 
any doubt that the pressure of sanctions has brought the 
Iranians to the table. I think that it partly explains why 
Rouhani campaigned on the platform that he did, which was to 
improve the Iranian economy through an accommodation----
    Mr. Sherman. So if something is working, why would you do 
less?
    Mr. Kahl. The point is I think we have sufficient leverage, 
actually, to get the ball rolling toward a comprehensive deal. 
I think that is the leverage that the administration is trying 
to capitalize on. The sanctions relief they are talking about 
in the context of the Geneva Accord would be, I think, around 
$6 billion total of relief, and it would be temporary. It would 
not undermine the oil or financial sanctions that give us the 
leverage.
    Mr. Sherman. Dr. Kahl, I mean, I want to go to the next 
witness, but I want to comment. You didn't give me a reason why 
we would do less except to say that our current sanctions, 
which were not sufficient to get a deal good enough for the 
French, are somehow sufficient, but you didn't say why not to 
increase them. So I will go to Mr. Dubowitz.
    Mr. Kahl. I was about to say that, but if----
    Mr. Sherman. I know, but they won't give me 10 minutes.
    Go ahead.
    Mr. Dubowitz. The fact of the matter there is too much 
focus, again, on how much we are offering at Geneva in terms of 
hard dollars. Is it $6 billion? Is it $20 billion? We can have 
to that debate. I am sure will you see the briefings.
    The more thing is the psychology of sanctions, Congressman 
Sherman. You have understood this over the years, and you have 
offered sanctions bills in this respect.
    Mr. Sherman. Yeah.
    Mr. Dubowitz. You have got to change the fundamental 
psychology of the marketplace. It is motivated by greed and 
fear. When fear overrides greed, they stay out of Iran. When 
greed overrides fear, they go back into Iran. If you don't 
escalate sanctions through the passage of that Senate bill, 
then greed will override fear, and you will be facing the 
dismantlement of the sanctions regime, which may be maintained 
on paper, but it won't be maintained in practice.
    Mr. Sherman. I am going to ask all three witnesses to 
respond for the record. What specific elements should we have 
in the next sanctions bill that I hope comes before this 
committee, keeping in mind that we can't just wave a magic wand 
and get our allies to participate? We can't just say, all money 
in Chinese banks has to be moved to German banks, otherwise, 
what, we won't accept any Chinese imports? I don't think we are 
to that point.
    So I would ask you to craft not the perfect wish list, but 
the list of things that Congress could pass and among the--and 
I hope you--I don't know if any of you have, you know, one 
silver bullet you want to share with us now, but I want all the 
bronze, silver, and gold bullets in your written response.
    Mr. Dubowitz. Well, there are no silver bullets. There is 
only silver shrapnel. And my testimony has eight specific 
ideas.
    I would say the one piece of silver shrapnel that I think 
would really wound this regime economically is if you said that 
any financial institution that gives Iran access to or use of 
its overseas foreign exchange reserves would be cut off from 
the U.S. financial system, it would effectively freeze Iran's 
access to its money. And only then once you have frozen all of 
its money should we even be discussing sanctions relief.
    Mr. Sherman. Ms. Pletka, do you have any silver bullets for 
us?
    Ms. Pletka. There are no silver bullets. It is all about 
the perception of enforcement and momentum. Mark is exactly 
right. I have looked at sanctions on any number of countries 
and worked on them. It is the psychology of the global 
marketplace, and right now the perception is that we are close 
to changing our mind and reversing momentum on Iran, and the 
Chinese are already back negotiating with the Iranians because 
they keep a close eye on this, and they are interested in the 
market. So I think the most important thing is to keep the 
administration and the Iranians' feet to the fire.
    Mr. Sherman. Okay. There are those who draw the red line 
where Iran gets one bomb. You are not really a nuclear power 
until you have several. You have got to test one and have some. 
Without revealing, basing your answer on classified 
information, they have got enough 3 percent uranium, so if 
enriched to 90 percent would provide for how many bombs? And 
under this agreement, do they keep creating more and more 3 
percent?
    Mr. Kahl--Dr. Kahl?
    Mr. Kahl. So they currently have enough 3.5 percent low-
enriched uranium to produce about half a dozen nuclear weapons, 
were they to decide to do so, a decision that our Intelligence 
Community says they haven't made.
    Under this agreement, my understanding--none of us know all 
of the terms, but my understanding is they would actually be 
required to do certain things to their 3.5 percent stockpile 
that they would produce in this next 6 months to make it 
unavailable for nuclear weapons, and so----
    Mr. Sherman. So they get to keep all they have now, and 
then the additional they create would be disabled in some way.
    Mr. Dubowitz?
    Mr. Dubowitz. Well, I don't have the details that Colin 
has, but if they maintain the 9,000 spinning centrifuges over 6 
months, I believe the calculation that I have seen from David 
Albright is that they would produce almost a bomb's worth, 
another bomb's worth, of 3.5 percent. So unless there are some 
details in the Geneva agreement that prevent that that I am not 
aware of, that would allow them almost another bomb's worth, so 
over 6 months of negotiations.
    Mr. Sherman. So they get one bomb plus $6 billion to $50 
billion. I think my time is expired.
    Ms. Pletka. That is just the 3.5 percent. That is not 
speaking of the 20 percent they have been enriching for the 
last year. They have ample fissile material to make a nice 
arsenal of nuclear weapons in a quick time, and don't let 
anybody reassure you on the question of conversion to oxide. It 
takes about a week or two to convert back.
    Mr. Sherman. Okay.
    Chairman Royce. We are going to go to Mr. Chris Smith of 
New Jersey.
    Mr. Smith. Thank you, Mr. Chairman. Thank you for calling 
this important hearing. Thank you, our witnesses, for your fine 
testimony.
    You know, in yet another sign of Iranian bad faith and 
wanton cruelty, American Christian pastor Saeed Abedini's 
situation has deteriorated significantly. The Christian Post 
today has an article. It begins,

        ``Pastor Saeed Abedini has been placed in a single cell 
        with five death-row inmates in Rajai Shahr Prison, and 
        is prevented from having any visitors, the American 
        Center for Law and Justice said, raising further 
        concerns that officials placed him there to 
        `disappear.' ''

    It is a murderers' jail, that jail, according to Jordan 
Sekulow from ACLJ, and, again, the risk that he faces now is 
extraordinary. As I think many of you know, Congressman Wolf 
chaired a hearing, and I plan on doing one very shortly, but he 
chaired one, and we heard from Naghmeh Abedini, who made an 
impassioned plea for her husband.
    And it seems to me if there is a canary in a coal mine, it 
is the human rights issue. When a regime so horrifically 
mistreats people, in this case an American citizen--and there 
are other Americans, too, that are being held, as well as many 
other indigenous Iranians who have been tortured because they 
espoused democracy or a particular religious belief, many of 
them being Christian--that also suggests how believable or not 
believable they are on the nuclear issue. You might want to 
have our witnesses speak to Abedini.
    Secondly, there was a report in The Daily Beast. The United 
States has done everything but stop blacklisting individuals 
and companies that help Iran evade international sanctions 
since Rouhani's election on June 4th. And then Treasury says, 
we have not let up on vigorous sanctions enforcement one iota. 
Who is telling the truth? You can't have it both ways. Either 
we are truly enforcing vigorously, or we have begun to back off 
very significantly.
    And finally, there is a report suggesting that China is 
purchasing its oil through a barter system to evade the 
sanctions regime, and including 40 joint infrastructure 
development purchases, capital equipment, technology, and 
materials to evade cash. Your thoughts on that.
    And finally, much of the focus has been on Iran's declining 
crude exports, oil exports; less focus has been paid on the 
exports of fuel oils. Should that be part of a sanctions 
regime?
    Ms. Pletka. If I may address the first question about the 
human rights situation, this is one of the things I alluded to 
in my testimony, and I don't want to take up too much of the 
time. I know my colleagues have something to say on these other 
questions as well. But it is remarkable how much we have left 
on the table vis-a-vis Iran. I mean, think to yourself, okay? 
These negotiations in Geneva went better, the Iranians gave up 
more, we were all satisfied in an interim deal.
    Do we realize that we would be opening the door and 
relieving sanctions at the same time that the Iranians are 
abusing the rights of their own people? The population of Evin 
Prison, in addition to the one you mentioned. The Baha'is. But 
set aside even the Iranian people. Let us say we don't care 
about them. What about Syria? What about Hezbollah? What about 
Hamas? What about Iranian interference in the Gulf?
    The day when we see Saudi Arabia and Israel banded together 
in opposition to our policy tells us that we have got something 
seriously wrong, and we have left all of that leverage on the 
table. That is a very serious area of pressure that we should 
be doing more on.
    Mr. Dubowitz. There are very few people more committed to 
sanctions enforcement than the U.S. Treasury Department and the 
Office of Terrorism Financial Intelligence, but there is no 
doubt that before Rouhani's election, the pace of designations 
was rapidly increasing. After his election it has been 
decreasing. And the reason for that is they get their marching 
orders from the White House, and it has been very clear that 
this administration, in order to grease the wheels for 
negotiation, has tried to offer essentially unilateral 
sanctions relief by slowing down designations, by blocking new 
sanctions in Congress, and by trying to lay the table for 
goodwill and confidence-building measures. So you are seeing 
that.
    In terms of oil, what we are seeing now, in fact, 150,000 
to 200,000 barrels a day of black market oil is moving from 
Iran to other purchasers. This is a great example of an 
emerging loophole in our sanctions laws that the new Senate 
bill and the House bill you passed was designed to actually 
fill, and because we are not filling the loopholes, the 
Iranians are driving an oil tanker through it.
    Mr. Kahl. If I could just say one quick thing on the human 
rights issue, which I take very seriously. There is no question 
that this is a reprehensible regime in many respects, but it is 
also the case that throughout the Cold War we repeatedly 
negotiated arms control agreements with the Soviet Union, which 
was at least as reprehensible as this regime.
    We don't have to make a choice. We should continue to 
pressure them on human rights, on Syria, on terrorism, on other 
issues, but we shouldn't hold any of those hostage to the 
nuclear issue, which is a very urgent issue and very much in 
our interest and our allies' interest. So we can do both.
    Mr. Smith. But very briefly, American Pastor Abedini, his 
situation has gone from horrific to even worse, and that is 
unconscionable.
    Mr. Dubowitz. Well, the rate of executions has accelerated 
under Rouhani, so I am afraid it is going to get worse, not 
better.
    Chairman Royce. We are going to go to Mr. Ted Deutch of 
Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    I would like to continue to explore the details of the 
reported agreement. I know that Secretary Kerry is over in the 
Senate today briefing colleagues there, and reports are that 
Under Secretary Sherman and Cohen will brief the Senate Banking 
Committee again tomorrow. I hope that this committee will also 
be briefed on the specifics of the proposal, in the appropriate 
location and at the appropriate time, sooner rather than later.
    I would like to just touch on the broader question of what 
the Iranians' intentions are with their nuclear program, and I 
would like to move a bit beyond the back-and-forth over they 
want the right to enrich, there is no right to enrich, and take 
them at their word for a moment. And if the Iranians are truly 
committed to a peaceful nuclear program, how much--Dr. Kahl, 
let me ask you this question--how much low-enriched uranium 
would they need to operate the one reactor that exists in Iran?
    Mr. Kahl. The answer is, under the current relationship 
they have with Russia, they don't need any low-enriched uranium 
because they get fuel from Russia. That is right.
    Mr. Deutch. Okay.
    Mr. Kahl. The issue is, and the challenge for our 
negotiators is, that this is a regime that has spent between 
$100 billion and $200 billion on its nuclear infrastructure, 
and, more importantly, its entire ideology is routed around a 
resistance to arrogant external powers and the notion that 
their nuclear rights are inviolable.
    Now, I don't agree with that, and I suspect you don't 
either from your comments.
    Mr. Deutch. Right. Right.
    Mr. Kahl. But we have to negotiate with the enemies we 
have, not the enemies we want.
    Mr. Deutch. I understand, but we also have to acknowledge 
what the facts are surrounding the arguments made by the people 
sitting across the table. And I would simply suggest that there 
is--if we take them at their word that, in fact, there is no 
desire for nuclear weapon, they don't need any more--they don't 
need any enriched uranium, but understanding why they want to 
be able to enrich, why not come clean about the rest of the 
program? Why not respond to IAEA investigations of the possible 
military dimensions of the program or the designs of triggers, 
or let inspectors into Parchin? Why not ship out the advanced 
centrifuges since those aren't necessary for them to be able to 
enrich and have nuclear power? Why allow the construction of 
Arak to continue for another 6 months, which puts us in a very 
dangerous position that will let Arak get closer and closer to 
going online even as we continue to negotiate?
    There was a report this morning that said Arak will be 
capable of producing enough weapons-grade plutonium for one 
nuclear weapon per year. Why, as part of all of this, instead 
of simply accepting the response that we sometimes get that we 
are not interested in nuclear weapons, and there is a fatwa 
against nuclear weapons, why not as part of these negotiations, 
as part of any deal, preliminary or final, why not have them 
respond to all of the allegations, the possible military 
dimensions that we all know about that the international 
community is well aware of?
    Mr. Kahl. So I think proliferation scholars would say that 
what they are engaged in is a nuclear hedging strategy. That 
is, they are definitely trying to put all of the pieces in 
place to develop nuclear weapons at some point in the future if 
the leader decides to do so.
    Mr. Deutch. Dr. Kahl, I am not asking--I don't want to 
speculate. That is my point. I don't want to speculate--no, let 
me just finish. I don't want nuclear scholars to speculate 
about what they may or may not be doing. If we are putting in 
place--if the goal is to put in place a deal, a diplomatic 
solution, which I support if we can get to one that works--I 
think all of us do--if that is where we are trying to go, why 
not as part of that expect them to and require them to respond 
to all of the things that they have done that have caused us to 
pass sanctions legislation, bill after bill, over the years?
    Mr. Kahl. I think we should. I think that--I think that we 
shouldn't trust them. We shouldn't trust the fatwa or take them 
at their word. The entire purposes of negotiations is to put in 
place meaningful and verifiable constraints on their nuclear 
program to assure all of us that they will never go for a 
nuclear weapon. That is the goal of diplomacy. The question, 
though, is should we go all in on an optimal deal that is 
likely not achievable and could result in a collision----
    Mr. Deutch. You know, I understand.
    Mr. Kahl [continuing]. Or should we go for a deal that is 
possible and also meets our national interests?
    Mr. Deutch. I understand, but I am trying to get beyond--we 
have gone back and forth on that. I understand that that is the 
part--that is the way any negotiation works. My question is 
what seems to be missing, but I don't know--I don't know, 
because it has not been confirmed, but what seems to be missing 
is that requirement that, look, if you want to deal, then at 
least come clean on all of these other aspects. Sit and tell 
us, respond to every question, let us have full access to 
Parchin. Tell us what you have been doing that has prompted the 
IAEA to continue to point out the possible military aspects of 
your program. Why is that too much to ask?
    Mr. Kahl. It is not too much. I think in the final deal, 
the comprehensive deal that the administration wants to 
negotiate over the next 6 to 12 months, they would have to come 
clean on the past military dimensions of the program. And I 
should say they are in ongoing negotiations with the IAEA on 
those facilities.
    Mr. Deutch. Why shouldn't they have to do that now at the 
outset as part of any preliminary deal?
    Mr. Kahl. Well, I think because the things that the initial 
deal has to address are the most urgent risks of a nuclear 
breakout; their 20 percent material, their advanced 
centrifuges; the loading of fuel assemblies into the Arak 
reactor; freezing centrifuge installations; putting in place 
more intrusive inspections in Fordow and Natanz, because I 
think the urgent aspects of the program have to be addressed 
first, and that is what the administration appears to be doing.
    Chairman Royce. Okay. We go to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. I am sorry, Doctor, but I just disagree 
with your somewhat positive analysis about where we are and 
where we are going. We are going in exactly the wrong direction 
with Iran right now. We are going exactly the wrong direction 
in a lot of areas. This administration is rapidly becoming the 
epitome of failure from the top, because what we have got, 
these failures that we are discussing today and the other 
failures that we are--are plaguing the people of the United 
States from its own government, can be traced right back to the 
methodology that this President is using to exercise authority 
and power granted to him during the elections.
    We have--let me just finish. For example, my colleague Mr. 
Smith was noting that the Treasury Department reveals--a review 
of the Treasury Department reveals notices that the United 
States Government has all but stopped the financial 
blacklisting of entities and people that help Iran evade 
international sanctions since the election of its President.
    Okay. So what we have here is that someone is offering 
waivers to what was the policy, and the blacklisting of people 
who were evading international sanctions, this is something our 
Government is supposed to be doing, but it is not doing it 
because of an intentional policy that was created where? And 
that the--later on in that article that my colleague Mr. Smith 
was reading, it states, ``Like the waivers on Obamacare, the 
administration believes it is a law unto itself.''
    So what we have here is the President of the United States 
not following what would be the normal procedures of our 
Government and coming up with failure both domestically and 
internationally.
    I don't see any reason for hope at all in terms of things 
getting better about Iran. This last series of overly 
optimistic negotiations have left us with nothing, nothing, but 
it appears to the world that we are weak.
    You know, going back to the Koreans--and this has happened 
before, it is not just this President, but other Presidents 
have made these kind of mistakes in approach. But we gave food 
and oil to Korea, to North Korea, with the idea that was going 
to make it more likely that they were going to pull in and 
reign in their nuclear program. And what we ended up doing was 
subsidizing dictatorship, subsidizing a vicious dictatorship, 
and actually perhaps elongating its life.
    We are now talking about Iran, about the mullah regime in 
Iran. It would be the equivalent of a Hitlerite regime in the 
midst of the world, and it is about ready to obtain the ability 
of dropping nuclear bombs on countries and on people that it 
has targeted. This is a catastrophe if we let this happen, and 
it has been coming on and coming on, and this administration is 
making it worse.
    I do not see, as you stated, Doctor, I am sorry, but you 
said we are buying time? We are not buying time. We are making 
a fool out of ourselves. We should--instead of being groveling 
to these people who murdered their own people, I might add--the 
mullahs murdered their own people; we can't expect them to 
treat the world in a different way--but while we are groveling, 
instead we should be spending our time supporting those 
elements in Iran that are opposed to the mullah regime. They 
would get--very quickly they would get the word if all of a 
sudden the Azaris, and the Baluchs, and the Kurds and the other 
people within Iran started receiving support from the outside 
on--that type of pressure, perhaps, they understand.
    And I might add that this administration started off right 
in the very beginning refusing to condemn the slaughter of 
democracy seekers in the streets of Tehran, who are protesting 
the mullah regime's stealing of the last election.
    Thank you, Mr. Chairman, I think I have made my point.
    Chairman Royce. We go now to Mr. Brian Higgins.
    Mr. Higgins. I thank you, Mr. Chairman.
    You know, a lot has been discussed here about perception, 
but clearly the United States has an objective here, and that 
is the prevention of Iran having a nuclear weapon, not the 
containment of it after the fact. We cannot allow Iran's 
nuclear program to reach a breakout capability; meaning that 
Iran cannot have a civil nuclear program that allows them, at a 
moment of their choosing, to turn it into a nuclear weapon.
    You know, there is good news here, and there is bad news. 
Iran is a country of 90 million people. Half the population is 
under the age of 25, and they are tech savvy. Social media is 
not on the side of the regime. Social media is used by Iranian 
youth not only for organizational purposes, but also for 
aspirational purposes. They can see how the rest of the world 
is living, and they ask the question, why not us? 
Organizationally, social media can be used for organizational 
purposes.
    What has the regime in Tehran been expert at? Suppression. 
Suppression. I suspect that sometime in 2014 you will see mass 
demonstrations on the streets of Tehran again because of the 
deplorable condition that the Iranian economy is in. They 
produce a lot of oil, but they don't have the capacity to 
refine that oil. So they export oil and then have to import 
gasoline because they lack that capacity.
    On a positive note Hassan Rouhani won an election, and 
there were only six candidates. He ran as the reform candidate. 
He ran against the policies that produce economic sanctions, he 
ran against the policies that produce international isolation, 
and once he became President, he said the economy was even 
worse than he originally thought it was.
    So the question is: Is Iran serious about change, and can 
Rouhani negotiate a deal that he can deliver on? The backdrop 
to that, ironically, is that Rouhani was Iran's nuclear 
negotiator for 10 years. Ten years ago Iran had 164 
centrifuges, the big machines that enrich uranium. Today Iran 
has 18,000 centrifuges, enough to allow Iran to make a bomb, to 
avoid detection, and to act before we can act against it.
    So while there are hopeful signs, there are also ominous 
signs as well. And while we are talking currently in the 
negotiations to destroy the Iranian atomic infrastructure, 
there is next-generation infrastructure that is held within the 
knowledge of Iranian universities and laboratories that even if 
we get a deal on the destruction, the next generation can be 
developed more quickly, the infrastructure itself, to 
facilitate the making of a bomb that much more quickly.
    So I will tell you that as Americans' interest in that 
region, particularly with respect to Israel, you know, we have 
to not put our brakes on relative to sanctions, but accelerate, 
because only if there is internal pressure by the emerging 
youth that is better capable of challenging the regime and the 
deplorable state of the Iranian economy will the Iranians 
change at all.
    So I would just ask you to respond to those thoughts.
    Mr. Kahl. So I think you hit a very important point. Even 
completely dismantling their program, completely, doesn't 
prevent them from reconstituting it at some point in the 
future. They have the knowledge in their head. So the question 
is if we are to prevent breakout along the lines you suggest, 
we need to maximize the amount of time it would take for them 
to build a bomb, we need to shrink the amount of time it would 
take for the international community to detect it so we could 
stop it if they moved in that direction, and we need to address 
the past military dimensions of their program along the way, 
along the roads that Congressman Deutch mentioned.
    I think Rouhani is serious. I think he believes he has a 
public mandate, and I think he believes he has some room to 
maneuver from the Supreme Leader. But I also think he believes 
he doesn't have all that much time, which is why I think he is 
anxiously pushing for a deal, and I think we are actually quite 
close on this first-step deal leading to the final-step deal.
    The challenge at the moment is that he has his own domestic 
political issues, and he has basically made the argument within 
the regime, give me a chance. Give me a chance. I am going to 
negotiate seriously. I will get a deal. And if we rush forward 
with sanctions now and appear hell-bent to increase sanctions 
regardless of Rouhani and Zarif's changed tone and their 
approach to negotiation, it risks empowering the hardline 
voices inside Iran who will undermine his ability to get us to 
a mutual objective of cutting some kind of deal.
    I also--my last point on the youth. I agree with you that 
the youth of Iran are extraordinarily important. I am less 
confident than you are that our economic pressure would somehow 
mobilize hundreds of thousands of folks to take to the streets 
in Tehran. It is worth keeping in mind, every opinion poll and 
survey done in Iran for a decade has shown overwhelming support 
for Iran's nuclear program, including its enrichment 
activities. The likelihood that if we tried to force the regime 
to capitulate completely on its nuclear program that that would 
mobilize domestic political opinion I think is just not borne 
out by the reality of public opinion in Iran.
    Mr. Dubowitz. If Rouhani wanted to sell a deal, he will 
sell a deal, because from his perspective and from the Supreme 
Leader's perspective, it will be a great deal.
    Chairman Royce. Mr. Tom Marino of Pennsylvania.
    Mr. Marino. Thank you, Chairman.
    Good afternoon--good morning, still morning. Thank you for 
being here.
    We are still dealing with the Iranian regime, and in the 
past these people have proved themselves to be murderers, and 
butchers, thugs, and psychopaths, and clearly and repeatedly 
they publicly articulate fanatical proclamations that all 
people who do not follow, who do not follow their absurd 
beliefs must be wiped off the face of the Earth, including 
children. Now we are going to negotiate with these people? You 
are negotiating with terrorists that have funded and backed 
suicide bombers and murderous gangs, and now you want to reward 
them. Absurd at best.
    Iran has a different President, Rouhani, of course; 
however, don't forget that he is a puppet and still controlled 
by the Supreme Leader. So are you going to continue to 
capitulate? What in God's name do you think has changed the 
minds of these butchers?
    Dr. Kahl?
    Mr. Kahl. Well, I would point out that we need to negotiate 
with our enemies, not just our friends, and we have negotiated 
with regimes----
    Mr. Marino. But we don't negotiate with terrorists. That 
has been a proclamation from the administrations since the 
1970s, so now we are going to turn that around and negotiate 
with terrorists?
    Have you considered at all, has this administration 
considered at all, Israel's plight in this, who is the 
stability there? And it is a slap in the face to Israel, and it 
allows the Iranians to know that now Israel and the United 
States may not be as close as they are, which isn't true, and 
it shows a weakness on our part. How do you account for that?
    Mr. Kahl. Well, I obviously don't represent the 
administration. I am not in the administration anymore. When I 
was there, I can tell you I did as much as any senior Pentagon 
official in recent history to support Israel's security, and I 
believe that every Israeli official I worked with would say the 
same thing. And I think that is not about me, it is about the 
Obama administration----
    Mr. Marino. I disagree with you on this that it shows that 
every person in that administration, regardless of whether you 
are there now or in the past, is very concerned about Israel, 
just the move that we are making now. And I am not holding you 
personally responsible for this. I disagree with many of the 
things that you had to say about what effect this is going to 
have. But what has happened to persuade you to think that these 
butchers are going to change their mind about whatever they do?
    Mr. Kahl. Actually I am not sure that they will. I think we 
need to test the possibility that they will, because, 
Congressman, what is the alternative? The alternative is we 
don't negotiate. We try to waive our diplomacy. And do you know 
what there will be? There will be a war.
    Mr. Marino. No, I do not agree with you. The alternative is 
going to be that there will be financial--there will be more 
financial devastation to that country. The people will--some of 
the people there, not many, are going to continue to uprise. 
And if they don't have the money, they cannot do anything.
    Mr. Kahl. But they are not anywhere close to that point.
    Mr. Marino. Well, then we need to make sure that they are 
closer to that point. You know, we should do what we did, what 
was d1 years ago in the 1960s: Ignore what they are trying to 
pull over our eyes. If this administration does not 
understand--the President has changed his mind on this issue 
again, and as far as being a diplomat, as far as knowing what 
foreign policy is, he is way off base. And, sir, I just--I get 
so upset over the fact that he thinks, or this administration 
thinks, that if they put their arms around these terrorists, 
they are going to say--we are going to sing Kumbaya, and 
everything is going to be fine. I just vehemently disagree with 
you.
    Mr. Kahl. With all due respect, I don't think that is their 
position. Look, we can't have it both ways. One cannot make the 
argument that Iran is on the brink of a nuclear weapon, and 
also make the argument which I am hearing which is we should 
just sanction them out of existence and wait until the regime 
falls.
    The timelines don't link up. There is no evidence even if 
we did everything that Mark subscribed, or everything that you 
passed in July, or everything that the Senate is considering, 
that it will bring the regime to its knees in a timeframe that 
prevents them from----
    Mr. Marino. Sir, you are comparing apples with oranges 
here, and you are basing your premise on the fact that the 
Iranians have changed in ideology of some sort, have at the 
very least realized that while these sanctions are hurting us, 
and we have to do something before we are completely bankrupt. 
And so you and I can debate this all day long. I respect your 
opinion, but----
    Mr. Dubowitz. And, Congressman, I would say it is a false 
choice. I mean, we are not passing sanctions to bring them to 
their knees and collapse their economy within 3 months. What we 
are trying to do is we are trying to pass sanctions in order to 
massively enhance American negotiating leverage so that we end 
up with a good deal, a good deal that we, you, the 
administration can sell to the American people. That is the 
goal.
    Mr. Marino. Well, we have to be the ones to call the shots 
here, not the Iranians.
    I see my time has run out, and I yield back. Thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you, Mr. Marino.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman.
    Gosh, when I hear statements like that that seem to suggest 
this President is not a reliable supporter or friend of Israel, 
I think that would come as news to the President of Israel, who 
awarded this President one of the highest awards that Israel 
has to give as a friend and supporter of Israel.
    But I am also not sure where that last line of questioning 
was supposed to take us. I certainly can appreciate the 
frustration, my friend, but, Dr. Kahl, I mean, what are the 
choices here? If we choose not to negotiate with Iran, 
irrespective of what we think of the regime, what is the choice 
in front of us? What is the option if we choose not to 
negotiate with them because they are ``murderers, and thugs''?
    Mr. Kahl. The options are twofold. One, we could continue 
to escalate sanctions in the hopes of imposing regime change. I 
would say, you know, Mark has been a leading advocate in 
imposing economic sanctions not for the purposes of forcing 
them to capitulate on their nuclear program, but for regime 
change. He has written about that repeatedly. We could take 
that course. The problem is, it is not going to work in a 
timeframe that satisfies our interest of avoiding a nuclear 
weapon. Or we could strike their nuclear program militarily, or 
the Israelis could do it, in which case you would set their 
program back a few years. They would rebuild it on the back end 
of those strikes. It would cause instability in the interim. It 
would shatter the international coalition surrounding Iran, and 
they might emerge on the back end with a nuclear weapon anyway.
    So all I am saying is diplomacy is hard. It is tough. It is 
going to take a while. And because it is going to take a while, 
we need to put some time on the clock, which is why we need an 
interim deal that leads to a comprehensive deal. There is--
look, I don't like this option either, but it is better than 
every other alternative.
    Mr. Connolly. Well, that is a good question. And I see you, 
Mr. Dubowitz. I will give us a chance in just 1 second.
    I think I hear some of the critics focusing on the 
suggested first-phase interim negotiation as some kind of sell-
out that should be avoided at all costs. It is all or nothing. 
I think I hear you saying that that is not how it works, and 
that won't work. And we are going to have to be willing to 
provide some kind of first phase if we are ever going to get to 
an ultimate negotiated settlement that is to our liking and 
Israel's; is that correct?
    Mr. Kahl. It is absolutely correct. I would make just two 
quick points: One, that the initial deal that is being 
discussed in and of itself is a good deal in terms of 
addressing the most urgent parts of the program; and second, it 
is absolutely essential to get to the final deal.
    Look, nobody in the administration that I have spoken with 
or others have spoken with believe that this interim deal is 
the final deal. It is not. It is the first step toward the 
final deal when Secretary Kerry, all of the rest see it that 
way, as does the President. We need to give it a shot.
    Mr. Connolly. Mr. Dubowitz.
    Mr. Dubowitz. Well, the French, who are the guardians of 
nonproliferation, certainly didn't see that it way. So let us 
be very clear.
    Mr. Connolly. Didn't see it what way, Mr. Dubowitz?
    Mr. Dubowitz. Well, they don't agree with that 
characterization, because at Geneva they insisted that that 
deal was not a good deal, and they refused to sign it.
    Mr. Connolly. Another way of saying that maybe is the 
French felt too much as was given away, or not enough was 
addressed on enrichment, for example, in phase one to satisfy 
them.
    Mr. Dubowitz. Correct. Which is why it was a bad deal.
    The second issue is sanctions are designed to put in the 
Supreme Leader's mind that they will bring economic collapse; 
not for regime change, not for provoking democracy 
demonstrations, but to put in his mind the fear that unless he 
concedes on his nuclear weapon program, he will lose his 
regime.
    Third of all, Colin has been a leading supporter of using 
military strikes as a verification and enforcement mechanism in 
a post deal environment. In other words, we will put in the 
safeguards regime, they will sign additional protocols, and 
then when they cheat, we will use military strikes in order to 
actually get them to comply. Now, the fact of the matter is 
that is just not credible. And the Iranians engage in strategic 
incrementalism----
    Mr. Connolly. Mr. Dubowitz, so what it is you think we 
should do since that is not credible and you think it is a bad 
deal phase one?
    Mr. Dubowitz. Well, we got to get the best deal possible 
that doesn't allow Iran to retain the essential elements of 
enrichment and reprocessing that allow it to build a nuclear 
weapon, because no gold standard safeguards regime in the world 
is going to prevent a dedicated ideological regime that wants 
to pursue a nuclear weapon from doing so at the time of its 
choosing unless you credibly think that the U.S. President is 
going to use military force as an enforcement mechanism for 
verification. Colin seems to think so. I don't.
    Mr. Connolly. I understand. I am down to 20 seconds.
    So what is the leverage we have got to get a better deal? 
Military strikes, or keeping the sanctions absolutely as is in 
place and maybe----
    Mr. Dubowitz. The leverage is what the President of the 
United States has repeatedly said it was. All options are on 
the table; a credible threat of military force and crippling 
sanctions, in the words of former Secretary Clinton and the 
administration. Crippling sanctions, a credible threat of 
military force. If you take both options off the table, you 
don't have course of diplomacy, You have discussions.
    Ms. Ros-Lehtinen. Thank you very much.
    We will go to Mr. Brooks of Alabama.
    Mr. Brooks. Thank you, Madam Chairman.
    This hearing's premise is that there is something wrong 
with Iran obtaining nuclear weapons. My series of questions 
hope to elicit information on this point. Now, first, if Iran 
continues to develop nuclear weapons at their current pace, in 
your best judgment, when is the soonest Iran will have a usable 
nuclear weapon, the soonest, Mr. Dubowitz?
    Mr. Dubowitz. Well, I believe that the estimates are that 
Iran is already in the position where it could actually 
weaponize uranium very quickly, in a matter of about a month. 
And so then the real question then is if it has the essential 
enriched uranium, weaponized uranium, to build a bomb, how long 
will it take to design a warhead, and a trigger, and a delivery 
vehicle?
    Mr. Brooks. That is what I asked. When will they have a 
usable nuclear weapon?
    Mr. Dubowitz. Right.
    Mr. Brooks. So how much time, in your best judgment, the 
soonest?
    Mr. Dubowitz. Well, the open reporting that I have seen is 
2014, 2015.
    Mr. Brooks. Ms. Pletka?
    Ms. Pletka. I think the problem that we are going to face, 
answering your question, is what you mean by usable nuclear 
weapon. If you mean a dirty bomb, they could do it today. If 
you mean a rudimentary nuclear device that they could deliver 
in the back of a truck or a bus, a month. If you mean a weapon, 
miniaturized on a delivery vehicle to--that works successfully, 
longer, probably a year, maybe even longer than that.
    Mr. Brooks. Dr. Kahl?
    Mr. Kahl. So our senior defense and intelligence officials 
have testified it would take them about a year to create a 
crude nuclear device. It would take them a few years to create 
a device that could sit on a missile. The long pole in the 
tent, though, is the fissile material, which all of us agree 
on.
    Mr. Brooks. Thank you. I just needed your time estimates. 
And I apologize for cutting you off, but I have 5 minutes, as 
everybody else does.
    In August 2011, I was part of a congressional delegation 
that met with Israeli Prime Minister Benjamin Netanyahu in 
Jerusalem, wherein he unambiguously warned us that Israel will 
not allow Iran to have nuclear weapons, period, exclamation 
point. My question: What has Iran done or said that justifies 
Israel's concerns?
    Mr. Dubowitz.
    Mr. Dubowitz. Well, let us see. They have threatened to 
wipe Israel off the map. The Supreme Leader has called Israel a 
cancerous tumor. They have had a 20-year, at least, nuclear 
weapons program that everybody acknowledges has taken place. 
They have engaged in nuclear deception, and I think, as 
Congressman Deutch pointed out, they have got essential nuclear 
elements that cannot be explained away for civilian purposes, 
and if it can be, then why aren't they explaining it away by 
coming clean on their past nuclear deception?
    Mr. Brooks. Thank you.
    Ms. Pletka, do you have anything you can add to that?
    Ms. Pletka. In addition to what Mark laid out, I think that 
what the Israelis look at is the willingness of the Iranian 
regime to arm proxy groups like Hezbollah, like Hamas with 
increasingly sophisticated devices. And the better the Iranians 
get, the better the products that they are willing to supply to 
those groups. So we now see that Hezbollah has guided missiles, 
that Hamas has missiles that can reach Tel Aviv. What is to 
stop Iran eventually from sharing more information?
    Mr. Brooks. Dr. Kahl, is there anything that you can add to 
that?
    Mr. Kahl. I would just say that I think President Obama 
shares Netanyahu's view that is unacceptable for them to get 
nuclear weapons, that it is a vital threat to us and a threat 
to Israel, and that the deal--that, you know, the getting the 
ball rolling on a diplomatic deal is aimed to precisely address 
those threats.
    Mr. Brooks. Has Iran done or said anything that should 
cause America to be concerned that Iranian nuclear weapons may 
be used to directly or indirectly, via terrorist surrogates, by 
way of example, attack American cities?
    Mr. Dubowitz?
    Mr. Dubowitz. Well, there is certainly open-source 
reporting that the Iranians are building an intercontinental 
ballistic missile program. They don't need ICBMs to hit Tel 
Aviv or Jerusalem. They need ICBMs to hit the United States.
    Mr. Brooks. What about the distribution of nuclear weapons 
to terrorist groups who may try to smuggle them into America 
via our rather porous borders?
    Mr. Dubowitz. It is an absolute nightmare scenario. I mean, 
they have close relationships with the most deadly terrorist 
organizations in the world that have killed Americans.
    Mr. Brooks. Ms. Pletka, do you have anything to add that 
might cause America to pause and be concerned about Iran's 
obtaining nuclear weapons?
    Ms. Pletka. Iran has invested an enormous amount of 
diplomatic, political, economic, and military effort into 
building its relationships in Latin America over the last few 
years. This committee has been very seized of that matter, and 
Ms. Ros-Lehtinen has had a number of hearings on the question 
in the last few years. Venezuela, Nicaragua, in addition 
Hezbollah has very substantial networks in Canada; we believe 
also in the United States.
    Mr. Brooks. Dr. Kahl, 10 seconds is all I have left.
    Mr. Kahl. Iran is a leading state sponsor of terrorism. It 
is worth noting, however, that they currently have chemical and 
biologic weapons capabilities and have never passed those 
weapons to terrorists.
    Mr. Brooks. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Brooks.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, and again, thank you to the 
witnesses for being here.
    I think it is important to reflect a bit why we are here, 
and talking about the need to increase sanctions pressure to 
have negotiations to get to where we are going. I think on 
sanctions, and I will repeat what has become a mantra, that we 
need to increase the intensity of the bite. We have to 
accelerate the pace of acceleration, but to do so, as you said, 
Mr. Dubowitz, to leverage the ability we have in negotiations 
with the credible threat of force to ultimately achieve a 
permanent prevention of Iran acquiring nuclear weapons. That is 
what this is about.
    And as I think about it, let me posit some ideas of what 
has to be included in an agreement, a final agreement. And as I 
see it, the first and foremost thing, we need Iran to come 
clean on their nuclear programs, halt and stop the weapons 
programs--and that would include Natanz, Fordow, Arak, and 
Parchin--to understand what they have, and any others that we 
aren't aware of. We have to not just have that halt, we have to 
have a reverse of their programs, a dismantling of Arak, a--
whether it is mothballing or removal, as you touched on, of the 
centrifuges. But ultimately we also have to have a permanent 
block or closure of the pathways Iran has, any pathways, both 
uranium and plutonium, to acquiring nuclear weapons.
    You, in your testimony, your submitted testimony, you 
talked about David Albright's irreducible minimums of what is 
required on those things, on the uranium pathway, on the 
plutonium pathway, the ability to acquire weapons. I will open 
this to all of you. As you look at what has been reported from 
Geneva, do we achieve that first step, the halting, the 
freezing of anything, do we achieve any of the movement that 
David Albright is calling for in his minimum requirements?
    Mr. Dubowitz. So my sense from the reporting is we achieve 
some of it. We don't achieve all of it. And remember, Dr. 
Albright's--it is called the irreducible minimum deal, but not 
for nothing. It is because all of those elements have to be 
there in order for it to be even a de minimis deal. So I think 
it is critical to understand that.
    I would also add to this, I mean, the Iranian regime have 
negotiators who are not only masters of nuclear deception, but 
they really know their file. I mean, they have forgotten tricks 
that our negotiators haven't even learned. And the key is they 
look for loopholes. You see that on the sanctions side. You see 
it on the nuclear physics side. They look for loopholes. They 
look for ways to reinterpret the nonproliferation treaty. They 
look for ways to give on 20 percent, and rope-a-dope us on 20 
percent, while still maintaining the ability to manufacture 
centrifuges and not to declare the centrifuge manufacturing 
facility so they can build up those nuclear chips for those 
negotiations. We are dealing with people who understand 
loopholes. They have a slew of loopholes on nuclear side, and 
we can't be fooled by loopholes on the nuclear side.
    Mr. Schneider. Dr. Kahl.
    Mr. Kahl. So I have had back-and-forth with David Albright 
on precisely this question, and this is Albright's analysis. If 
the deal stops 20 percent enrichment and neutralizes most of 
the stockpile, it doubles the estimated time that Albright has 
calculated for a breakout. That is not enough, but it is a step 
in the right direction; that is, it rolls back the program. If 
the deal----
    Mr. Schneider. Six weeks?
    Mr. Kahl. If the deal stops centrifuge, additional 
centrifuge installation and operation, that also prevents Iran 
in the next 6 months from shrinking the time in which it could 
use its stockpile to go for nuclear weapons, and if the deal 
stops them from making fuel assemblies for the Arak nuclear 
reactor, then they also can't bring that online. And if the 
deal increases inspections on facilities, it would be harder 
for them to cheat and not get detected. All of those things are 
actually quite good.
    Mr. Schneider. Dr. Kahl, isn't it a case that Iran has 
already said they are delaying until 2014 bringing the Arak 
reactor online? They will still be doing construction of Arak?
    Mr. Kahl. Yeah. So, no, that is a very good point. I think 
there is a lot of confusion in the media about this. The 
agreement on the table, to include the one that existed before 
the French ever raised objections, would have been to prevent 
Iran from producing fuel assemblies. It is not just that they 
just can't turn it on, they have to build the fuel assemblies 
at Isfahan to actually load them into the Arak reactor. If you 
prevent them from building any of those assemblies for the next 
6 months, it is not like the day after the 6 months they can 
insert them all. They would then have to start the process of 
constructing the fuel assemblies all over again. So it is 
meaningful. The most meaningful aspect of construction for Arak 
that the Israelis are worried about and that we are worried 
about are the fuel assemblies and----
    Mr. Schneider. Once those are in, we cannot destroy the 
reactor without----
    Mr. Kahl. But this deal will push that way to the right.
    Mr. Schneider. So we are like--what I have heard is we are 
talking about 6 months. We don't have 6 months. It has to be 
much shorter. As I think Mr. Dubowitz was saying, it is 6 weeks 
is the timeframe. How do we make sure that we bring--to your 
words, you said it is unclear sanctions can bring a deal in 
time to prevent a breakout. How do we make sure that we 
continue to accelerate the pace, increase the intensity, and 
bring Iran to a decision point before they get to their final 
point of having a nuclear weapon?
    Mr. Kahl. Let me invoke David Albright one last time. They 
have been at the point for actually about a year where in a 
couple of months they could produce fissile material for a 
weapon. The reason why they haven't done that is that 
inspectors visit those facilities every week or two, which 
means they get caught. So I know 6 weeks doesn't sound like a 
long time, and I wish it was a lot longer, and we should push 
for a deal that makes it a lot, lot longer. But the reality is 
that inspectors visit there every week or two, and the regime 
is not going to go for a bomb if it gets caught, because the 
reason is they don't want to get hit by the Israelis, by us, or 
by anybody else.
    Mr. Schneider. But we need the sanctions to make sure they 
don't move forward. We have to increase the pressure and we 
continue to negotiate so that we get to a place, in your words, 
that we have sanctions that get us to a place where we prevent 
them from having a bomb.
    I yield back.
    Chairman Royce [presiding]. All right. And also, I 
understand that come 12 o'clock, there are some flights out, 
and I know, Dr. Kahl, you had mentioned that you will have to 
catch a flight at that time, and we appreciate very much your 
testimony. Any time you need to go, we understand because of 
your flight schedule.
    But we are going to go now to Mr. Ron DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman, and thank the 
witnesses.
    You know, this issue is frustrating because I remember when 
Rouhani was elected in Iran, I started reading about how he was 
a moderate. A lot of the Western press was very hopeful that 
this signaled a big change. But then as you look beneath the 
surface, I mean, a lot of this I think the moderation is 
basically a function of differences in tactics and tone, and I 
think that he is smart to do that. Ahmadinejad said outrageous 
things because he meant outrageous things, and people at some 
point started to believe that he actually meant those things.
    So you look at this Iranian President. Does he reject 
outright in the same way that the Holocaust happened like 
Ahmadinejad? No, not really. He says, well, look, people may 
have died, but I am not an historian, is what he will say. And 
he will come to the West and offer soothing-sounding 
platitudes, but looking beyond the surface of the words that he 
provides, this is somebody who, in my judgment, is very much in 
tune with the Iranian mullahs who are running that regime.
    I mean, even when he was running as a candidate, you know, 
he said, saying death to America is easy. We need to express 
death to America with action. Last decade he called Israel a 
terrorist nation. One of his defense ministers was one of the 
plotters of the 1983 Marine barracks bombing in Beirut. 
September of this year, he said, our Government will not give 
up one iota of its absolute rights on the nuclear issues. He 
bragged about how he tricked the Europeans, essentially duping 
them to buy more time so that Iran would be able to convert 
uranium yellowcake. And, of course, he was the head of Iran's 
National Security Council from 1989 to 2005. Of course, during 
that time, you had the bombing of the Jewish Cultural Center in 
Buenos Aires, and the 1996 bombing of the Khobar Towers.
    And so I guess my concern is, you know, I don't believe--I 
could see how some people because of the sanctions would see a 
need from an Iranian perspective to have a deal, but I just 
don't think somebody who is representing the regime's 
perspective would actually believe that foregoing a nuclear 
weapon would be in their interest as they define it in 
opposition to the United States and Israel. And so am I right 
to have this degree of skepticism about this particular 
President, and, of course, obviously, with the regime that 
ultimately controls him?
    Ms. Pletka. You know, in my testimony I said that we were 
fortunate in our adversaries, and I think that was true under 
Ahmadinejad. He made it pretty easy to make the case that Iran 
was a menace. Rouhani is much cleverer, and I think that even 
internally he is going to handle things very skillfully.
    I think as Mark has said, and as many members of the 
committee have said, the issue here is whether we can change 
Iran's calculations. If Iran did not need to change its 
calculations, there should be no doubt in our minds that they 
wish to develop a nuclear weapons option; not necessarily a 
device, but certainly a breakout capability, and an option. So 
can we change their calculus sufficiently in order to get them 
to delay it, understanding that that weapon is so debilitating 
to their ability to maintain domestic control and to keep the 
country economically afloat, that they are willing to put it 
off? That at the end of the day is the calculation. That is 
why, to me, the arguments that we should lessen sanctions seems 
so inapt, because that is what this is about.
    Mr. Dubowitz. And I would just add to that, I mean, it was 
not about Rouhani, it was not about Khatami, it is not even 
about Ahmadinejad. It is about the Supreme Leader of Iran, Ali 
Khamenei, okay, who is a man who has ruled that country with an 
iron fist, who has dedicated himself to building a nuclear 
weapon, who calls Israel a cancerous tumor, and who is 
basically funding an ICBM program to hit the United States of 
America, and who, by the way, tweeted out a few days ago, 
reportedly from his Twitter account, we believe it is his 
Twitter account, a picture of the Iranian negotiators, and it 
said, these are not compromisers. These are children of the 
revolution.
    I mean, it is all very interesting. I mean, so what is he 
trying to tell us by that? Well, he is actually saying exactly 
what we fear: There are not compromisers. They will not 
compromise on Iran's nuclear ambitions. These are children of 
the revolution, which is ideologically committed.
    Mr. DeSantis. Which is exactly why my skepticism remains, 
because, from their perspective, getting involved in these 
negotiations, you know, these fig leafs back and forth, that, 
to me, is just buying them time. If you are not going to have 
tough sanctions, if you are not going to have potential 
consequences that could change the calculus, you know, I fear 
that they are going to proceed, and I think it will be much 
more difficult once they are successful in that regard. So I 
really appreciate your comments.
    I yield back.
    Chairman Royce. Okay, we are going to go to Mr. Sires of 
New Jersey.
    Mr. Sires. Thank you, Mr. Chairman.
    Thank you for being here, and I know it is late. And I 
heard just about every argument, but I come from a different 
perspective. I come from the perspective of how we negotiate. 
Here we have a country that just a couple of years ago was 
willing to blow off somebody here in Washington, DC, fomenting 
all sorts of trouble throughout the world and terror, and all 
of a sudden somebody blinked, and we are negotiating. And you 
have the President calling him on the phone. I mean, the next 
thing he is going to ask him to play golf or something.
    I really don't get the way you negotiate with this regime. 
I mean, they are nothing but trouble, liars, oppressing their 
people. Like you said before, there are more assassinations in 
the country, you know, than ever before. So I don't understand 
how we, all of a sudden, are willing to just open the doors, 
negotiate, reduce the sanctions.
    You know, I negotiated many contracts over many years, and 
the last person that the contract comes to is the leader. You 
send everybody else in, so you are at the end, you can really 
get some of the things that you want in a negotiation. But to 
jump in from the beginning, I just wonder what you think of 
that? I mean, like, come on, you are making a phone call 
already? It is ridiculous.
    Mr. Dubowitz. Congressman, we are negotiating with people 
who we like. I actually disagree; we are negotiating with 
people who we really like. We are negotiating with ourselves. 
We are negotiating with ourselves in Washington, DC, and we are 
asking a fundamental question. And I don't want to--Colin is 
not here, so I don't want to put him on the spot.
    Mr. Sires. Well, I was hoping you could tell me----
    Mr. Dubowitz. There is a temptation in this city in 
approaching these kinds of seemingly intractable problems to 
negotiate with ourselves and for us to deem what is reasonable, 
and then we take what is reasonable to the Iranians, and they 
have one word for it. Their word is ``no.''
    Mr. Sires. Absolutely.
    Mr. Dubowitz. And what they do, which is very adept, is 
they take--and Congressman Deutch talked about this on the 
issue of enrichment--they say the right to enrichment is 
nonnegotiable, nonnegotiable. We will not negotiate over it. So 
we say, well, okay, we have our maximalist position on the 
right to enrichment, and they have their maximalist position, 
and then we will negotiate.
    Well, the fact of the matter is our maximalist position, as 
we so termed it, should be the minimum condition. It should be 
the one that the five U.N. Security Council resolutions 
stipulate. But we don't do that. We negotiate with ourselves, 
we come up with reasonable deals, and the Supreme Leader says 
no. And that is how the Iran regime negotiates, which is why 
they are taking us and are going to take us to the cleaners.
    Mr. Sires. They are taking us to the cleaners.
    Ms. Pletka. It is important to understand, as you 
underscored, that a negotiation remains a negotiation no matter 
what. The problem for us is the Iranians have dealt themselves 
a very nice set of cards and are constantly willing to hand off 
things to us that are facts, as you say, on the ground that 
they have created over the last couple of years. They weren't 
enriching to 20 percent before. Now all of a sudden they are 
willing to give it up at a time when we were demanding that 
they end all enrichment.
    We have not dealt ourselves a fine set of cards in the 
sense that every bad actor position that Iran has taken 
throughout the region, whether it is trying to assassinate the 
Saudi Ambassador here in Washington, DC, arming Hezbollah, what 
it is engaging in in Syria, we have not--we haven't brought 
those things up. We haven't said, you know what, okay, we will 
talk to you about these things if you talk to us about that. We 
have not negotiated this skillfully. And I don't believe that 
Secretary Kerry, I don't believe Wendy Sherman, I don't believe 
any of these people are fools, and I don't believe that they 
want to do a bad deal. The problem is they want do a deal more 
than the Iranians do.
    Mr. Sires. To me, it just seems that if they sense in us 
that we are incompetent negotiating, or somehow that we are 
weak negotiating, they are just going to become tougher to 
negotiate with. They will just keep adding and adding and make 
no concessions.
    To me, we should pass this bill that we have in the Senate, 
continue the pressure on this government so if somehow we can 
have a negotiations, not that it will lead to what we 
eventually want, but I think we have to keep the pressure on 
the----
    Mr. Dubowitz. Keep all options on the table. As the 
President of the United States has said repeatedly, keep all 
options on the table; don't unilaterally take them off the 
table.
    Mr. Sires. But this business of buddy buddies, oh, come on, 
that is ridiculous. I am sorry.
    What were you going to say, Ms. Pletka? Were you going to 
add something.
    Ms. Pletka. No, thank you.
    Mr. Sires. Okay.
    Chairman Royce. We go now to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. Appreciate you guys 
being here. You are doing a great job.
    Ms. Pletka. Will you forgive? I need to step out. My 
daughter just hit her head and----
    Mr. Yoho. Absolutely, I understand completely.
    Mr. Dubowitz. This is about which witness is the last one 
standing.
    Mr. Yoho. That is right. I don't know if you win or lose, 
though.
    Mr. Dubowitz. This is good. I am worried.
    Mr. Yoho. It just amazes me to hear what is going on right 
now in the present situation with these negotiations when we 
have always had a policy of nonnegotiation. And the thing I 
like about this, Mr. Chairman, and I appreciate you putting 
this together, is it is bipartisan. Pretty much everybody is 
the same on this.
    Iran, what I have heard is they have got enough 3.5 percent 
uranium for six to seven bombs. This is despite the 
international sanctions and also with what is going on over the 
last 30 years. I mean, they have had a tough situation that we 
put a lot of pressure on there, not just us, but the world, and 
despite that, they are still doing this. And they have lied or 
misled, and they have just talked about the same thing over and 
over again, no, we are not doing this, but yet they have.
    And I remember the words of Ronald Reagan that said trust 
by verify, but I feel Iran, and especially Mr. Rouhani, has 
lied, denied, deceived, but keep building, and that is what I 
have seen. And they are going to get a bomb, and then we are 
going to have to contend with that.
    And my concern is that they already have the material to do 
a dirty bomb. And with their association with the terrorists 
and things they have done just to hurt Americans and, you know, 
the destabilization of the Middle East, you know, I just see 
this getting worse and worse despite what we have done. And at 
a time where we have had these sanctions and they have done 
this would be not a time to back off.
    And I don't understand the administration's perspective of 
why they want to go in there and loosen these sanctions up. I 
agree with everybody else here. I think this is the time to put 
more sanctions in there, tougher sanctions.
    And I like the idea about dealing with the international 
markets, with the banking. I think that was you who brought up 
that. We can't dictate to anybody else, but we certainly can 
say, well, if you are dealing with those, we can freeze assets.
    I think we also need to look in the South Americas with 
Venezuela and Central America that are helping them stay afloat 
financially. I would just like to hear your thoughts on that.
    And I would also like to hear your thoughts on--and you 
have already addressed this a little bit--is what state of the 
development of their ICBM program are they, and how soon do you 
think that will be available? And what kind of numbers are you 
looking at?
    Mr. Dubowitz. So just on the ICBM, I am not obviously--I 
don't have access to classified intelligence on this, but I see 
an open-source reporting that the Intelligence Community 
believes that they may have ICBM capability by 2015.
    In response to your other points, Congressman, I would just 
say this: Let us not be under illusions, we don't have 
crippling sanctions. We don't have them. We have sanctions that 
are painful, where Iranians are painfully muddling through, but 
they have more than sufficient foreign exchange resources to 
take themselves to critical nuclear capability, which is 
something that Colin was raising as a concern and rightly so. 
But we haven't imposed crippling sanctions. So we talked about 
it, the rhetoric has suggested that, we have had bills, we have 
had designations, we have had a lot of activity, but we haven't 
moved to crippling economic sanctions. And there is a way to do 
it, and we should do it, but we have got to do it now.
    Mr. Yoho. I agree. I think that is what we need to do right 
is put now more pressure on them, because I think their 
willingness to come to the table or wanting to is maybe they 
are feeling a little bit of pain over there, and I think this 
is the time to tighten up the pressure on it.
    Mr. Dubowitz. And there is no credible military threat. I 
mean, let us not delude ourselves. The Supreme Leader doesn't 
think that the administration is going to bomb these nuclear 
facilities, and this administration has done everything it can 
to box in the Israelis and undercut their credible military 
threat. So both have been taken off the table. You take it off 
the table, you no longer have coercion. When you don't have 
coercion, then you are going to enter a diplomatic game where 
even the French say, ``Arrete.''
    Mr. Yoho. Mr. Chairman, I am going to yield back. Thank 
you.
    Chairman Royce. Thank you, Mr. Yoho.
    We are going to go now to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    Well, I guess I am ready now to ask questions. Listening to 
all of this is really excruciating, because we all know that as 
we talk, Iran is not up to any good. So let me just start out 
with what I think everybody here agrees is that an Iran with 
nuclear capabilities is bad. It is bad because it is a state 
sponsor of terror, it is a habitual human rights violator, it 
is directing Hezbollah's war in Syria. And something else which 
I think we haven't mentioned is that it would lead to 
uncontrolled nuclear proliferation in a very unstable region of 
the world. So we all agree with that: Iran cannot be allowed to 
have nuclear weapons.
    So my first question--I have a series of questions. Let me 
ask them to you, and you can answer in any order. One, do you 
think a diplomatic solution is ever possible? And number two, I 
am assuming you do agree that this temporary agreement that is 
being suggested is not sufficient as a permanent deal, and so 
my next question, which I would have liked to give to Mr. Kahl, 
was can you ever go back to a tougher stance once you seem have 
a lesser stance? Is there any concern about a regime change for 
the worse if we do not go forward with this temporary 
arrangement? And what do you suggest would be the next steps? 
And then when is enough enough?
    Mr. Dubowitz. So I think those are great questions, 
Congresswoman. I believe very strongly that there can be a 
diplomatic resolution of this nuclear crisis, and I think it 
can be done through tough negotiating, through coercive 
diplomacy, through crippling sanctions and a credible threat of 
military force. That is the stated policy of the Obama 
administration.
    I think the danger that we have gotten into is we have 
decided to negotiate with this regime, and in doing so, and 
even before the negotiations, we set the table, but we set the 
table in a way that was advantageous to our opponent. We 
engaged in unilateral sanctions relief. Unilateral sanctions 
relief. We took our leverage, our economic leverage, and we 
diminished it. We blocked these sanctions in the Senate, we 
diminished the pace of designations, and we sent a message to 
the world that, you know what, just wait, because pretty soon 
the architecture will remain, but the psychology will shift, 
and you can go back to business. Because if you go back to 
business, we are not going to sanction companies from Beijing 
to Berlin. We are not going to sanction companies from Moscow 
to Paris. And that is a fundamental problem, so we have 
diminished our negotiating leverage as we have gone in.
    At the same time on the deal side, what the Iranians are 
doing as to nuclear physics, they are enhancing their 
negotiating leverage. That is exactly what they did in Geneva. 
They are giving concessions that are increasingly less relevant 
to their nuclear weapons capability, like the 20 percent. The 
20 percent is becoming increasingly less relevant because they 
have installed over 19,000 centrifuges, which is getting them a 
more and more rapid breakout capability.
    There are major loopholes in that Geneva proposal as 
reported. It is the reason the French said no. Those loopholes 
are being created at the negotiating table, and over the next 6 
months the Iranians will expand the loopholes, find other 
loopholes, and they will do everything they can to get to 
Geneva in 6 months' time with increased nuclear negotiating 
leverage while having diminished our economic negotiating 
leverage, which is why I suggested to you earlier I don't 
understand how we are going to get from a bad interim deal to a 
better final deal when this is the high-water mark of American 
negotiating leverage.
    Ms. Frankel. Just to continue with some of those questions, 
I have heard the argument that if we don't do a temporary deal, 
that this could lead to a worse regime taking over in Iran. 
Have you heard that argument, and what would you say to that?
    Mr. Dubowitz. I have heard the argument, and I would say to 
you I couldn't imagine a worse regime in Tehran. I mean, I 
don't foresee who actually would replace Khamenei, the 
Revolutionary Guards, which has been a dictatorial regime, it 
has brutalized its own people, is a state sponsor of terrorism, 
and is devoted to building a nuclear weapons program, with 
anything worse. I mean, I don't see who is waiting in the 
wings. Now, who is waiting in the wings are not Jeffersonian 
Democrats. This is not going to be Canada.
    And speaking of Canada, I mean, this is interesting. So 
there are 34 countries in the world that have actually nuclear 
programs. You know, nineteen of those countries actually don't 
buy nuclear fuel from abroad. Well, I should say they do buy 
nuclear fuel from abroad; they don't enrich, and they don't 
reprocess them. One of them is Canada, right? And there are 14 
European countries and South Korea and South Africa and others. 
And then there are a whole bunch of countries that do enrich 
and reprocess of which nine have nuclear weapons, and the five 
that don't have nuclear weapons but enrich and reprocess are 
actually Holland, and Germany, and Japan, Brazil and Argentina.
    So here is the fundamental question for you on this issue 
of the regime: Are we negotiating with King Willem of Holland 
or Ali Khamenei of Iran? And do we think that when Ali Khamenei 
is gone, that there will be the new king of Iran who will be 
better?
    I think there will be, I think he will be better. I think 
when Ali Khamenei and this regime is gone, we will have a 
better regime in Tehran with whom we can negotiate a serious 
arms control and nonproliferation treaty, but not with this 
regime.
    Chairman Royce. We are going to Mr. Scott Perry of 
Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman, and thank you, Mr. 
Dubowitz. You get the stamina prize.
    This is all--for me anyhow, this is all so predictable. You 
know, the great unwashed of us out there have been watching 
this for the better part of 20 years, and predictably, as Iran 
does this slow march toward their inevitable goal, and we keep 
talking and fiddling, so to speak.
    I wonder--and I am disappointed Dr. Kahl has left--if he 
would agree with your assessment of strategic incrementalism, 
because that is what most of us have seen, and unlike the 
enlightened class, again, to us it seems somewhat inevitable.
    I do want to make mention of your characterization of the 
negotiations with Iran like--and I would characterize them as 
very similar to what happened in DC about a month ago, where we 
negotiated with ourselves on this side of the aisle, and the 
other side said no. I find that fascinating in this 
circumstance.
    Dr. Kahl talked about the pride that Iranian citizens have 
with their nuclear program. And I would like you, if you could 
very quickly, to quantify that, because what I don't know is 
with their nuclear program as a weaponized program for 
aggressive proactive strike, so to speak, as necessary, or a 
peaceful civilian nuclear program which produces power, which 
one do they have affinity for?
    Mr. Dubowitz. Well, that is actually a great question. I 
don't know what polls Dr. Kahl is referring to. The polls that 
I have seen actually don't draw the distinction. And so the 
question is are you asking Iranians do they support a civilian 
nuclear program, or do they support a nuclear weapons program? 
And furthermore, are you asking Iranians if you get to choose 
between a nuclear weapons program and the collapse of your 
economy, which one do you choose? I haven't seen the results.
    Mr. Perry. So we are led to believe there is this false 
choice for Iranian citizens, who many are friendly with the 
United States, that they have to have this all-or-nothing 
proposition. And I don't necessarily agree or believe it is the 
case, and I appreciate your clarification.
    I do think that in this instance, because there is so much 
at stake, that negotiation is reasonable on this instance 
because there has been a change in the top, and the rhetoric 
has changed, and just explore what the options are. But I am, 
as many Americans are, concerned about implications for the 
broader region, and for our only true ally in the region, which 
is Israel, which has very much at stake to lose.
    So I ask you what, other than the rhetoric, anything other 
than the rhetoric, has changed on the ground regarding the 
nuclear program and ambitions of Iran that should lead us to 
believe that we should change our position? Is there anything 
other than rhetoric, tangible?
    Mr. Dubowitz. Nothing has changed in--fundamentally changed 
in the rhetoric, I would argue. The nuances have changed. The 
nuclear physics have changed. Iran has advanced its programs 
significantly.
    I think what has changed is there is a sense now in Iran 
that they can have their cake and eat it, too. They can have a 
nuclear weapons program and a buoyant economy----
    Mr. Perry. Let me redirect----
    Mr. Dubowitz [continuing]. Except for--I am sorry, just to 
finish--that was the choice.
    Unfortunately the negotiations at Geneva are showing the 
Iranian regime that they can have a nuclear weapon, and 
sanctions relief, and a stabilized economy that gets the oil 
flowing. And then Supreme Leader Khamenei can do what he has 
always wanted to do. He wants to be a regional power; he 
doesn't want to be the Persian equivalent of North Korea.
    Mr. Perry. My question, I guess, should have been very 
clear: What has changed for us? What would incentivize us? What 
would motivate us? I know what is changed for them. What is in 
it for us? Aren't they still buying time? Aren't they still 
enriching? Why don't we require them as a minimum standard to 
dismantle their military portion of it, knowing that they could 
enrich to very low levels and create power if they wanted to 
and have no military application. Shouldn't that be our minimum 
standard? What has changed in that calculation for America?
    Mr. Dubowitz. Congressman, nothing has changed.
    Mr. Perry. Thank you. I yield back.
    Chairman Royce. Thank you.
    We go to Mr. Juan Vargas of California.
    Mr. Vargas. Thank you, Mr. Chairman.
    I would like to say Vive la France. Vive la France. Thank 
God for the French. They saved us on this one.
    Mr. Perry. It is unfortunate.
    Mr. Vargas. It is unfortunate, no, but thank God for the 
French. It is interesting how the French really stepped in and 
say, what are you guys doing? This is not enough. You can't 
trust this deal. And I completely agree with them.
    I mean, it seems to me if you really want to get a deal, 
you have to get the ultimate deal first, and that is you have 
to agree, you and Iran have to agree, that you can't get a 
nuclear weapon, that you can't have the nuclear weapons 
program. Let us agree to that first, agree to that; then we 
will agree to the interim program. Then we can talk about what 
we can do to get there. But agree with that first.
    But I don't think they will ever agree to that, because I 
think that is what they want. I mean, it seems almost ludicrous 
to me to think that they want anything other than that.
    Their nuclear program is interesting because it actually 
began back in the 1950s, and the United States was the one that 
helped them. That was the Atoms for Peace program, I think it 
was called. We were the ones that first got involved with this 
nuclear program with the Iranians. And they wanted to develop 
energy, of course, and now it has taken on a very new dimension 
since the revolution there. And I think it is ludicrous for us 
to think that they are trying to do anything other than that 
with this program.
    One of the things I was going to--and I do want you to talk 
about is this, because I don't think most Americans get this. 
When I talk to people about this, they say, well, they need 
this fuel, that is why they are doing it. No, they don't. You 
mentioned 19 countries, but could you explain more specifically 
why they don't need to enrich to this level, because many, many 
countries have nuclear programs, nuclear energy, and they don't 
do this.
    Mr. Dubowitz. That is exactly right, Congressman. So, 
again, there are 19 countries in the world that have civilian 
nuclear programs, they buy their nuclear fuel from abroad, and 
the economic assessments that I have seen actually demonstrate 
that it is more expensive for Iran to power a civilian nuclear 
program with its own domestic enrichment capability or 
plutonium reprocessing capability than it would be to buy 
nuclear fuel from abroad.
    So it doesn't make economic sense. It certainly hasn't made 
sense at all, because they have been under punishing sanctions 
that have really put severe stress on their economy, though 
those sanctions haven't been crippling enough to actually 
change their fundamental calculus. And so one wonders why they 
continue to persist in this program. If this program is for 
civilian purposes. It makes no sense economically, it makes no 
sense politically, but it makes a whole lot of sense if your 
goal is to build a nuclear bomb, and to have regional power, 
and to achieve regional hegemony, and to threaten your 
neighbors. Then it makes a lot of sense.
    Mr. Vargas. And that, to me, sounds absolutely obvious. Why 
would they allow themselves to go through these sanctions when 
they could very easily say tomorrow, you know what, we are 
going to give up this program; you know, we are going to give 
up this enrichment program, we are not going to weaponize. 
Instead we just want peaceful nuclear energy. We just want 
nuclear energy to run the lights here in our country. They 
could do that tomorrow and not go through these sanctions that 
are--they are not crippling, but are going to damage their 
economy.
    Mr. Dubowitz. Well, that is exactly right. And you would 
also ask, well, why have you engaged in decades of nuclear 
deception? Why haven't you come clean with the international 
community on these possible military dimensions of your 
program? Why have you lied? And since you have lied, how can we 
actually believe in your promises of transparency going 
forward?
    I mean, it gets back to this old issue which we don't even 
talk about, at least I haven't heard this discussion, what does 
the safeguards regime look like? What does the verification and 
inspection regime look like postdeal?
    And by the way, when the Iranians engage in strategic 
incrementalism, which is known as incremental cheating, what is 
our response going to be? So they don't let inspectors into 
Parchin 2, Parchin 3 and Parchin 4, okay, or they block access 
to certain critical facilities where they are manufacturing 
centrifuges, et cetera, et cetera. What are we going to do as 
the United States of America to ensure those inspectors get to 
see what they want to see, and that the Iranians are not 
engaging in cheating and diverting their enriched uranium for 
military purposes?
    I would contend to you, sir, that a lot of experts at that 
point will say to you, that is when we are going to use 
military force. And I would suggest to you as well that I find 
that very hard to believe.
    Mr. Vargas. I would, too.
    Mr. Dubowitz. And not credible.
    Mr. Vargas. Especially where we are right now. That is why 
I think we have to get the ultimate deal first or no deal at 
all. Then you can negotiate the interim. But until we get 
there, I don't see how we can have any kind of meaningful deal 
that is verifiable or enforceable. So again, in light of that, 
I would say again Vive la France. Thank God for the French on 
this. At least they are open-eyed on this.
    Mr. Dubowitz. The French are the guardians of 
nonproliferation. And there is a great editorial in Le Monde 
today, which is the leading French newspaper. I would suggest 
all of you read it. Le Monde, I think, described this very, 
very carefully and accurately about why the French care so 
deeply about stopping Iran's march to nuclear weapons.
    Mr. Vargas. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Vargas.
    We go now to Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman, for holding a very 
timely and valuable hearing for the American people to watch 
and for us to participate in.
    Most of my questions were answered. I just don't want 2013 
to resemble 1938. I don't want to reach a deal that is so weak 
that it will resemble the deal, the Munich Agreement, which 
Neville Chamberlain so aptly said, ``Peace in our time''; is so 
remembered for an agreement which allowed Germany to continue 
its march to war unfettered. I do not want Iran to continue its 
march to a nuclear arsenal unfettered.
    Chinks in armor. For centuries enemies have looked for 
chinks in the armor. And I think when a Presidential candidate 
says that he would sit down with a country like Iran, who 
Americans know are not sincere, they sit down with no 
preconditions, I think that begins the chink in the armor. I 
think when you have weak agreements, that you expand that chink 
and give the enemy an opportunity to get into the underbelly, 
the weak underbelly, of a country.
    Mr. Rahall mentioned earlier our relationship with Israel, 
the United States relationship with Israel, and I think you 
said that it has never been stronger. But, you know, Israel is 
concerned about this to the point that they have come out 
strongly opposed to the Obama administration negotiations. In 
fact, Prime Minister Netanyahu tweeted on November 7th this: He 
said in his tweet, if the news from Geneva is true, this is the 
deal of the century for hashtag Iran. And he went it on to say, 
Saudi Arabia has invested in Pakistan nuclear weapon projects 
with a potential ability to obtain atomic bombs at will. Israel 
is concerned, and they should be.
    Since June when Rouhani was elected, Treasury has issued 
only two designation notices that identified six people in four 
companies violating the Iranian sanctions. The Obama 
administration has also opposed new Iran sanctions, the 
bipartisan legislation which has passed Congress. We have every 
right to be concerned. We have every right to hold these kind 
of hearings to raise awareness and address these issues. I 
think the panelists have done a great job really identifying 
the problems and the concerns that we all should have.
    So I want to shift gears, Mr. Dubowitz, and just ask you 
about the gold sanctions implementation just for a minute, 
because I had an amendment to a bill that came through this 
very committee which addressed the gold sanctions and 
specifically Turkey. Section 5(a) of Executive Order 13622 
sanctions a person that has materially assisted, sponsored, or 
provided financial, material, or technological support for, or 
goods or services in support of, among other items of purchase 
or acquisition, U.S. Bank notes or precious metals by the 
Government of Iran. This is an Executive Order by the Obama 
administration. Given that any effort to evade or avoid the 
sanctions is a violation, how many people has the 
administration sanctioned under this Executive Order, to your 
knowledge?
    Mr. Dubowitz. To my knowledge, none.
    Mr. Duncan. Who specifically has the administration 
sanctioned for gold or related transactions with the Government 
of Iran?
    Mr. Dubowitz. Well, that was hard. That was the answer to 
my question, none.
    Mr. Duncan. None. Same answer, none.
    So if we are not enforcing these kind of Executive Orders 
and these kind of sanctions, what kind of weight do they carry, 
and what signal does that send to the folks in the region?
    Mr. Dubowitz. On the gold issue it is complicated, but it 
is instructive for the way forward. That Executive Order was in 
July 2012. Between July 2012 and July 1st of 2013, when the 
congressional gold sanctions came into effect, at the request 
of the administration they were delayed, as you remember, by 
180 days. Iran earned $6 billion worth of gold between July and 
July to add to its foreign exchange reserves. Now, since 
congressional sanctions had actually come into effect in July 
of this year, the gold sales to Iran have plummeted. They have 
come off a cliff. And the congressional sanctions have been 
actually very, very effective.
    Now, if we are now going to be offering gold sanctions 
relief as part of some interim measure, we estimate that that 
gold relief could be worth about $9.6 billion over a 6-month 
period. And we get that because the height of the monthly gold 
sales that Iran was actually accessing last July was about $1.6 
billion per month, so they were at about a monthly high of $1.6 
billion. If they get back to $1.6 billion with gold sanctions 
relief, that is 6 months at $1.6 billion, that is $9.6 billion, 
almost $10 billion worth of gold, which, by the way, is 50 
percent of their total fully accessible foreign exchange 
reserves. So right now they only have $20 billion in fully 
accessible reserves. We are about to add $10 billion to the $20 
billion and give them $30 billion in accessible reserves. That 
is the price of sanctions relief in exchange for incremental 
nuclear concessions that buy them economic runway and don't 
give us the opportunity to efficiently block their nuclear 
physics runway.
    Mr. Duncan. It continues to buy them time.
    Mr. Dubowitz. $10 billion. It is 50 percent increase in 
their fully accessible reserves.
    Mr. Duncan. And from what I hear you saying, the gold 
sanctions have worked.
    And with that, Mr. Chairman, I yield back.
    Chairman Royce. I thank the chairman, and I thank the 
witnesses, too. I thank them for their testimony.
    And, Members, thank you for being here today. These are 
critical times for the national security of the United States. 
And as we have heard, central to these talks is the issue of 
uranium enrichment and reprocessing. These technologies can 
produce the explosive material needed for a nuclear bomb, and 
that is why multiple U.N. Security Council resolutions have 
reiterated the demand that all of Iran's enrichment activities, 
regardless of their purpose, must be suspended. Six such 
resolutions. On this question the world has spoken decisively, 
and on this question I think our members of the committee have 
spoken, too.
    This hearing is adjourned.
    [Whereupon, at 12:34 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
